1a
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MICHAEL RAY PERRY,
No. 17-35524
United States of America ex rel., D.C. No.
Plaintiff-Appellant,
6:08-cv-06307-MC
and

MEMORANDUM*

UNITED STATES OF
AMERICA,

(Filed Apr. 8, 2019)

Plaintiff,
v.
HOOKER CREEK ASPHALT
AND PAVING, LLC;
OREGON MAINLINE
PAVING, LLC; J.C. COMPTON
CONTRACTOR, INC.; KNIFE
RIVER CORPORATION NORTHWEST; CENTRAL
OREGON REDI-MIX, LLC;
HAP TAYLOR & SONS, INC.,
Defendants-Appellees.

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
We GRANT the Motions to Take Judicial Notice, filed on February 5, 2018, and June 4, 2018 (Dkt. # 19, 43).

2a
Appeal from the United States District Court
for the District of Oregon
Michael J. McShane, District Judge, Presiding
Argued and Submitted December 5, 2018
Seattle, Washington
Before: W. FLETCHER, BYBEE, and WATFORD,
Circuit Judges.
Relator Michael Perry appeals from the district
court’s order dismissing Perry’s third amended complaint with prejudice. The district court ruled that
Perry’s claims failed to satisfy the pleading requirements of Federal Rules of Civil Procedure 8(a) and 9(b).
We have jurisdiction under 28 U.S.C. § 1291, and we
affirm.
This is the second trip this case has made to us on
appeal. In the first iteration, Perry appealed the dismissal with prejudice of his second amended complaint. Though we agreed that Perry’s second amended
complaint was deficient under Rule 9(b), we reversed
and remanded because it was “not clear that Perry’s
complaint could not have been saved by any amendment[.]” On remand, Perry filed a third amended complaint alleging that defendants violated the False
Claims Act, 31 U.S.C. § 3729, with respect to 21 specific
highway projects by knowingly billing for work and
materials that did not meet state quality assurance
standards, causing Oregon to submit false claims to
the federal government for reimbursement of federal
highway apportionment funds.

3a
Perry argues that the district court violated the
law of the case doctrine by dismissing his third
amended complaint. “[T]he decision of the circuit court
in a prior appeal must be followed in all subsequent
proceedings in the same case under the law of the case
doctrine.” Lindy Pen Co. v. Bic Pen Corp., 982 F.2d 1400,
1404 (9th Cir. 1993). Contrary to Perry’s argument, the
mandate in the previous appeal did not require the district court to accept Perry’s third amended complaint.
We agree with the district court that Perry’s third
amended complaint did not allege with particularity
the “who, what, when, where and how” of a consistent
course of fraudulent conduct. See, e.g., United States ex
rel. Cafasso v. Gen. Dynamics C4 Sys., Inc., 637 F.3d
1047, 1054–55 (9th Cir. 2011) (False Claims Act complaint must satisfy Federal Rules of Civil Procedure
8(a) and 9(b) and the heightened plausibility standard
of Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) and Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)); Ebeid
ex rel. United States v. Lungwitz, 616 F.3d 993, 998 (9th
Cir. 2010). Although Perry narrowed his complaint to
focus on stand-alone projects rather than representative examples, the third amended complaint still fails
to satisfy Rule 9(b). Because Perry’s third amended
complaint does not meet the burden of Rule 9(b), we do
not address whether the factual allegations are plausible under Rule 8(a).
AFFIRMED.

4a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
THE UNITED STATES
OF AMERICA, ex rel.,
MICHAEL RAY PERRY,
Plaintiffs,
v.

Case. No.
6:08-cv-6307-MC
OPINION AND
ORDER
(Filed May 26, 2017)

HOOKER CREEK ASPHALT
& PAVING, LLC, et al.,
Defendants.
Nearly ten years ago, relator Michael Ray Perry
filed this complaint alleging defendants violated the
False Claims Act, 31 U.S.C. § 3729, by conspiring to defraud the United States over many years in the construction of road projects. Judge Michael Hogan twice
pointed out the deficiencies in Perry’s complaint. A
Ninth Circuit panel unanimously agreed Perry’s complaint lacked the requisite particularity needed to support a fraud claim but, over a dissenting opinion,
concluded Judge Hogan should have granted Perry
leave to amend as the allegations “could potentially
provide sufficient particularity to satisfy Rule 9(b).”
United States ex rel. Perry v. Hooker Creek Asphalt and
Paving, LLC, 565 Fed.Appx. 669, 670 (9th Cir. 2014).
Defendants now move to dismiss Perry’s fourth attempt at providing sufficient facts to support his fraud
claims. Because Perry’s complaint still fails to state a

5a
claim under the False Claims Act, this action is dismissed, with prejudice.
STANDARD OF REVIEW
To survive a motion to dismiss under rule 12(b)(6),
a complaint must contain sufficient factual matter
that “state[s] a claim to relief that is plausible on its
face.” Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570
(2007). A claim is plausible on its face when the factual
allegations allow the court to infer the defendant’s liability based on the alleged conduct. Ashcroft v. Iqbal,
556 U.S. 662, 663 (2009). The factual allegations must
present more than “the mere possibility of misconduct.” Id. at 678.
While considering a motion to dismiss, the court
must accept all allegations of material fact as true and
construe them in the light most favorable to the nonmovant. Burget v. Lokelani Bernice Pauahi Bishop
Trust, 200 F.3d 661, 663 (9th Cir. 2000). But the court
is “not bound to accept as true a legal conclusion
couched as a factual allegation.” Twombly, 550 U.S. at
555. If the complaint is dismissed, leave to amend
should be granted unless the court “determines that
the pleading could not possibly be cured by the allegation of other facts.” Doe v. United States, 58 F.3d 494,
497 (9th Cir. 1995).

6a
DISCUSSION
The parties, and now five judges, are quite familiar
with Perry’s claims. Judge Hogan’s previous opinions
dismissing the case provide much more detail on both
the alleged facts and how Perry’s claims are “woefully
lacking in detail.” United States ex rel. Perry v. Hooker
Creek Asphalt & Paving, LLC, 2012 WL 913229 at *2
(D. Or. March 16, 2012 Opinion) (quoting December 13,
2011 Opinion)). It is worth noting Judge Callahan’s
dissenting opinion in which he suggests that the plaintiff ’s ability to plead a claim is nothing more than aspirational:
I cannot agree with such speculation. Plaintiff
in twice responding to motions to dismiss
never asserted individual claims with sufficient specificity. More importantly, the majority does not identify any specific example
that actually contains sufficient particularity
to support an individual claim. Rather the
majority suggests that some unspecified examples “could potentially provide sufficient
particularity.” This seems to me to be wishful
thinking, particularly because the district
court noted, and plaintiff does not really contest, that plaintiff does not have access to the
information on billing, the records and practices underlying the defendants’ billing for
work performed, or “materials provided relating to the road construction in issue.”
Having affirmed the district court’s dismissal
of the second amended complaint without in
any way disagreeing with its reasoning, I

7a
cannot conclude that the court abused its discretion in denying leave to amend. Indeed, insisting that plaintiff be granted leave to file a
third amended complaint appears to be a futile exercise that unnecessarily burdens the
district court and the defendants. Accordingly,
I would not have granted the petition for rehearing and I dissent from the order remanding the case to the district court.
565 Fed.Appx. at 671-72 (emphasis added).
I too am cognizant of unduly burdening these parties and their attorneys. For that reason, and because
Perry’s new complaint does not fix the fatal flaws found
in each earlier complaint, I conclude that oral argument in this matter is unnecessary and unduly burdensome.
Over the past 9 years, the parties filed thousands
of pages of briefs and exhibits. Despite all those filings,
Perry still admits that he “does not have access to the
information, records and practices underlying defendants’ bills for work performed and materials provided
relating to road construction and maintenance contracts at issue in this lawsuit. Such information is in
the exclusive possession or control of defendants
and/or the United States.” Third Am. Compl., ¶ 47. For
one bringing a claim under the False Claims Act, this
admission presents a problem. See Cafasso, United
States ex rel. v. Gen. Dynamics C4 Sys., Inc. 637 F.3d
1047, 1055 (9th Cir. 2011) (“It seems to be a fairly obvious notion that a False Claims Act suit ought to require a false claim.”) (quoting United States ex rel.

8a
Aflatooni v. Kitsap Physicians Serv., 314 F.3d 995, 997
(9th Cir. 2002)).
Judge Hogan’s conclusion from over five years
ago—a conclusion the Ninth Circuit unanimously affirmed—rings equally true with respect to Perry’s now
fourth bite at the apple:
There are no facts concerning the alleged false
vouchers and cost schedules caused to be presented to the federal government or when and
by whom they were submitted. It is simply not
plausible that all defendants submitted falsified billings for all projects for all work for the
Oregon Department of Transportation over a
ten year period.
Furthermore, because there are insufficient
allegations of the billings themselves, the
complaint fails to allege with the requisite
specificity defendants’ intent vis-á-vis the federal government, what information was presented to the federal government (or even the
Oregon Department of Transportation for
that matter), or what role the information provided in the federal government’s decision to
pay (or even what if anything the government
paid). There are no allegations of facts about
what was contained in the claims for payment, whether the claims were paid with or
without adjustment, and whether the federal
government viewed payment as contingent on
the absence of the alleged deficient testing or
materials. Mere conclusory allegations that
the elements of the statutes in question are
met are inadequate to meet the pleading

9a
requirements in this case. Accordingly, the
complaint is dismissed.
2012 WL 913229 at *4.
Perry argues that because the contracts and bills
are in the exclusive possession of the government
and/or defendants, the rigorous pleading standards for
a False Claim Act should be relaxed and he should be
allowed to pursue his theories via discovery. The Ninth
Circuit, however, explicitly rejected Perry’s argument
when it balanced that argument against the purpose
of the False Claims Act: to entice insiders to blow the
whistle on fraudulent activities at government expense. Ebeid ex rel. United States v. Lungwitz, 616 F.3d
993, 999 (9th Cir. 2010) (“To jettison the particularity
requirement simply because it would facilitate a claim
by an outsider is hardly grounds for overriding the
general rule, especially because the FCA is geared primarily to encourage insiders to disclose information
necessary to prevent fraud on the government.”). Perry
is not an “insider” within the meaning of the Act. An
insider would have at least some knowledge of the actual claims presented for payment.
According to the complaint, “Project Managers are
delegated authority and responsibility to enforce contract provisions.” Third Am. Compl., ¶ 33. Perry was
not a project manager. Perry was an Assistant Quality
Assurance Coordinator (QAC). Id. at ¶ 42. Generally,
QACs like Perry were responsible for making sure
contractors complied with specifications. Id. Perry’s
complaint essentially charges defendants with failing

10a
to comply with specifications. As Perry has not seen the
contracts or the bills defendants submitted, he merely
assumes that defendants violated the False Claims
Act.
But “insider” knowledge of the actual claims is
critical to any False Claims Act claim. Such knowledge
is even more critical when examining the actual contracts at issue here.1 Section 00150.25 of the 2002
Edition of the Oregon Standard Specifications on Construction states:
00150.25 Acceptability of Materials and
Work – The Contractor shall furnish Materials and shall perform Work in Close Conformance to the Plans and Specifications. If the
Engineer determines that the Materials furnished or the Work performed are not in Close
Conformance with the Plans and Specifications, the Engineer may:
Reject the Materials or Work and order
the Contractor, at the Contractor’s expense, to
remove, replace, or otherwise correct any nonconformity; or
Accept the Materials or Work as suitable
for the intended purpose, adjust the amount
paid for applicable Pay Items to account for
1

Perry’s complaints specifically refer to and rely on the contracts and therefore the Court takes judicial notice of the contracts at issue. Lee v. County of Los Angeles, 250 F.3d 668, 689
(9th Cir. 2001). Perry also references and relies on the 2002 version of the Oregon Quality Assurance Program Manual and Oregon Standard Specifications on Construction. The Court takes
judicial notice of those documents as well.

11a
diminished cost to the Contractor or diminished value to the Agency, document the adjustment, and provide written documentation
to the Contractor regarding the basis of the
adjustment.
Knife River Memo., Ex. 1, 8; ECF No 209-1.
The Project Manager—as noted, Perry was never
a Project Manager—“has the authority and responsibility to enforce the provisions of the contract” and
ensures that “the Project meets the requirements specified in the plans and specifications.” Id. at Ex. 2, 9. As
Perry was not privy to the contracts or submitted
claims, he necessarily is in the dark as to whether any
payment amounts were adjusted given the alleged failure to comply with specifications. As the False Claims
Act requires an actual false claim, any adjustments
made for failing to meet specifications—clearly allowable in Oregon—would torpedo Perry’s claim. Oblivious to whether any adjustments were made here, Perry
simply seeks to fish out these claims through discovery.
The pleading requirements, however, are not relaxed
merely to allow an “outsider” such as Perry to bring a
claim. Lungwitz, 616 F.3d at 999.
Likewise, Perry has no knowledge as to whether
defendants submitted truthful claims that the government simply paid anyway. Perry simply assumes
the worst, alleging a seemingly vast conspiracy, over
nearly a decade, between private contractors and
ODOT Project Managers over nearly all state highway
construction projects. I assume, without deciding, that
such a grand scheme could perhaps be possible. But

12a
considering Perry lacks knowledge as to a single claim
actually submitted, I decline to overlook the “obvious
alternative explanations” to Perry’s claims. Cafasso,
637 F.3d at 1057 (“In light of Cafasso’s failure to identify any particular false claims or their attendant
circumstances, as well as the ‘obvious alternative explanation’ that no false claims occurred, we will not
draw the unwarranted and implausible inference that
discovery will reveal evidence of such false claims.”).
Interestingly enough, Perry’s complaints actually
provide support for the “obvious alternative explanation” that any payments to defendants were simply adjusted downward for any failures to comply with
specifications. Defendants provide numerous detailed
examples in their thorough briefings. To pick just one
of the many examples, defendants point to ¶ 144 of the
Third Amended Complaint. There, Perry alleges:
This project consisted of building a small
bridge in Sliver [sic] Lake. By 2006, defendant
knew that the work it performed on the project had failures of specifications for earthwork (00330) and concrete bridges (00540).
Despite such knowledge, it submitted claims
on the subcontract, in an amount to be determined, for such non-conforming work.
Elsewhere, as (again) pointed out by defendants,
Perry’s own allegations confirm that there in fact was
no false claim. Perry alleges, “Although the contract required the addition of fly ash into the concrete mix, defendant produced the concrete without fly ash. After
this deficiency had been revealed to ODOT, defendant

13a
submitted a new mix design without fly ash.” Third
Am. Compl., ¶ 153. These are just two of many examples. Already too much time and ink has been spent on
this False Claims Act claim brought by a relator who
admits having no knowledge, of any kind, regarding
any claim actually submitted.
It is clear that Perry is unable to properly plead a
False Claims Act claim due to his status as an “outsider” with no access to the claims at issue. After all,
“[A]n actual false claim is ‘the sine qua non of a[n FCA]
violation.’ ” Cafasso, 637 F.3d at 1055 (quoting Aflatooni,
314 F.3d at 1002). Perry includes no specifics regarding
who specifically made the claim, what the claim specifically contained, and why the claim was false. In short,
Perry fails to allege not only the who, what, where and
when of the fraudulent actions, but he also neglects to
allege, in any meaningful way, “what is false or misleading about [the purportedly fraudulent] statement,
and why it is false.” Id. (quoting Lungwitz, 616 F.3d at
998) (alteration in original).
It appears that this scenario, where: (1) a QAC
witnessed concerning construction techniques; (2) the
QAC reported those concerns to his superiors; and
(3) the QAC alleges he was terminated for raising
such concerns, is a garden-variety employment retaliation case. But Perry brought those claims in his employment case preceding this action. As a result,
Perry is left trying to shoe-horn his claims into the
False Claims Act. Considering he lacks any information on any actual claims submitted, Perry’s task is

14a
an insurmountable one. As stated above, this action is
dismissed, with prejudice.2
CONCLUSION
Defendants’ motions to dismiss, ECF Nos. 209, 214,
and 215, are GRANTED. This action is DISMISSED,
with prejudice.
IT IS SO ORDERED.
DATED this 26th day of May, 2017.
/s/ Michael J. McShane
Michael McShane
United States District Judge

2
Because Perry’s lack of direct knowledge regarding the
claims is fatal, I need not discuss the multiple other arguments
defendants raise on the motions to dismiss. That said, several of
those arguments appear to be strong ones.

15a
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MICHAEL RAY PERRY,
No. 12-35278
United States of America ex rel., D.C. No.
Plaintiff - Appellant,
6:08-cv-06307-HO
v.
HOOKER CREEK ASPHALT
AND PAVING, LLC; et al.,

ORDER and
MEMORANDUM*
(Filed Mar. 27, 2014)

Defendants - Appellees.
Appeal from the United States District Court
for the District of Oregon
Michael R. Hogan, District Judge, Presiding
Argued and Submitted October 7, 2013
Portland, Oregon
Before: SILVERMAN, W. FLETCHER, and CALLAHAN,
Circuit Judges.
Judges Silverman and Fletcher vote to grant
the petition for panel rehearing (ECF No. 75). Judge
Callahan votes to deny the petition for panel rehearing.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
* This disposition is not appropriate for publication and is
not precedent except as provided by 9th Cir. R. 36-3.

16a
on whether to hear the matter en banc. See Fed. R. App.
P. 35.
The petition for panel rehearing is granted, and
the petition for rehearing en banc is denied.
The Memorandum Disposition filed October 24,
2013 is WITHDRAWN and replaced with the following
Memorandum Disposition:
Relator Michael Perry appeals from the district
court’s order dismissing Perry’s second amended complaint with prejudice. The district court ruled that
Perry’s claims failed to satisfy the pleading requirements of Federal Rules of Civil Procedure 8(a) and 9(b).
We have jurisdiction under 28 U.S.C. § 1291, and we
reverse in part and remand.
Perry generally alleges that defendants violated
the False Claims Act, 31 U.S.C. § 3729, by knowingly
and intentionally submitting bills to the State of Oregon for work and materials that did not meet state
quality assurance standards, causing Oregon to submit false claims to the federal government for reimbursement of federal highway apportionment funds. In
his second amended complaint, Perry offers a number
of “representative examples” of what he alleges was a
broad scheme of fraud, spanning more than 200 contracts. Because these examples describe a wide variety
of alleged violations, they do not serve to allege with
particularity the “who, what, when, where and how” of
a consistent course of fraudulent conduct. See, e.g.,
United States ex rel. Cafasso v. General Dynamics C4
Systems, Inc., 637 F.3d 1047, 1054–55 (9th Cir. 2011)

17a
(False Claims Act complaint must satisfy Federal
Rules of Civil Procedure 8(a) and 9(b)); Ebeid ex rel.
United States v. Lungwitz, 616 F.3d 993, 998 (9th Cir.
2010) (False Claims Act complaint must satisfy the
heightened plausibility standard of Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009) and Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 570 (2007)), cert. denied, 131
S. Ct. 801 (2010). Because we find that Perry’s second
amended complaint fails to meet the burden of Rule
9(b) for such conduct, we do not need to address
whether the factual allegations contained in his complaint are plausible under Rule 8(a).
Although we agree that Perry’s second amended
complaint did not meet the requirements of Rule 9(b)
for a consistent course of fraudulent conduct, the district court should have granted Perry a further opportunity to amend. Federal Rule of Civil Procedure 15(a)
provides that leave to amend should be freely granted
“when justice so requires.” A relator “is not required to
allege all facts supporting each and every instance” of
fraudulent billing. Ebeid, 616 F.3d at 999 (internal
quotation marks omitted). Rather, “it is sufficient to allege ‘particular details of a scheme to submit false
claims paired with reliable indicia that lead to a strong
inference that claims were actually submitted.’ ” Id. at
998–99 (quoting United States ex rel. Grubbs v. Kanneganti, 565 F.3d 180, 190 (5th Cir. 2009)).
“Under futility analysis, ‘[d]ismissal without leave
to amend is improper unless it is clear, upon de novo
review, that the complaint could not be saved by any
amendment.’ ” United States ex rel. Lee v. Corinthian

18a
Colleges, 655 F.3d 984, 995 (9th Cir. 2011) (quoting
Krainski v. Nevada ex rel. Bd. of Regents of Nevada
System of Higher Education, 616 F.3d 963, 972 (9th Cir.
2010), cert. denied, 131 S. Ct. 1678 (2011)). While
Perry’s use of “representative examples” does not succeed in alleging with particularity a consistent course
of conduct, or scheme of systemic fraud, Perry’s complaint contains specific examples that, if brought as individual claims, could potentially provide sufficient
particularity to satisfy Rule 9(b).
Because it is not clear that Perry’s complaint could
not have been saved by any amendment, we reverse
the district court’s dismissal and remand to allow him
an opportunity to amend to narrow his complaint.
REVERSED in part and REMANDED.

Perry v. Hooker Creek Asphalt, No. 12-35278
CALLAHAN, Circuit Judge concurring and dissenting.
I concur in the holding that the district court
properly dismissed plaintiff ’s second amended complaint for failure to satisfy the pleading requirements
of Federal Rule of Civil Procedure 8(a) and 9(b). However, I remain of the opinion set forth in our initial
memorandum disposition that the district court did
not abuse its discretion in denying plaintiff leave to
again amend his complaint.
We review a trial court’s denial of leave to amend
a complaint for abuse of discretion. United States ex

19a
rel. Lee v. Corinthian Colleges, 655 F.3d 984, 995 (9th
Cir. 2011). This discretion is particularly broad when
the plaintiff has previously amended the complaint.
Ascon Prop., Inc. v. Mobil Oil Co., 866 F.2d 1149, 1160
(9th Cir. 1989). We have further held that leave to
amend may be denied when an amendment would be
futile. See Klamath-Lake Pharmaceutical Ass’n v.
Klamath Medical Service Bureau, 701 F.2d 1276, 1293
(9th Cir. 1983); Miller v. Yokohama Tire Corp., 358 F.3d
616, 623 (9th Cir 2004).
Here, the district court properly determined that
any amendment would be futile. Plaintiff filed his qui
tam complaint in 2008, and the United States declined
to intervene in 2010. In 2011, the defendants first
moved to dismiss, but the district court granted plaintiff leave to file an amended complaint. Plaintiff filed a
33-page second amended complaint with an appendix
listing over 260 various projects for which six different
entities had over a ten-year plus period of time billed
the State of Oregon in order to receive compensation
from the United States. Defendants again moved to
dismiss and on March 16, 2012, the district court
granted the motion without leave to amend.
In granting the motion to dismiss, the district
court found that plaintiff: (1) “still tries to equate
general allegations of substandard work to an [False
Claims Act] claim”; (2) failed to heed the district court’s
determination that the claims “were not amenable to
representative example type pleading”; and (3) advanced representative examples that still did “not connect any person to the alleged fraudulent conduct, or

20a
state when and where the conduct occurred.” The court
further held that “because there are insufficient allegations of the billings themselves, the complaint fails
to allege with the requisite specificity defendants’ intent vis-a-vis the federal government, what information was presented to the federal government, . . .
or what role the information provided in the federal
government’s decision to pay.”
Our consistent, and unanimous, affirmance of the
district court’s grant of the motion to dismiss confirms
the propriety of the district court’s determinations. The
majority, however, suggests that while plaintiff ’s “representative examples” do not allege “with particularity
a consistent course of conduct, or scheme of systemic
fraud,” plaintiff ’s second amended complaint “contains
specific examples that, if brought as individual claims,
could potentially provide sufficient particularity to satisfy Rule 9(b).”
I cannot agree with such speculation. Plaintiff in
twice responding to motions to dismiss never asserted
individual claims with sufficient specificity. More importantly, the majority does not identify any specific
example that actually contains sufficient particularity
to support an individual claim. Rather, the majority
suggests that some unspecified examples “could potentially provide sufficient particularity.” This seems to
me to be wishful thinking, particularly because the district court noted, and plaintiff does not really contest,
that plaintiff does not have access to the information
on billing, the records and practices underlying the

21a
defendants’ billing for work performed, or “materials
provided relating to the road construction in issue.”
Having affirmed the district court’s dismissal of
the second amended complaint without in any way disagreeing with its reasoning, I cannot conclude that the
court abused its discretion in denying leave to amend.
Indeed, insisting that plaintiff be granted leave to file
a third amended complaint appears to be a futile exercise that unnecessarily burdens the district court and
the defendants. Accordingly, I would not have granted
the petition for rehearing and I dissent from the order
remanding the case to the district court.

22a
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MICHAEL RAY PERRY,
No. 12-35278
United States of America ex rel., D.C. No.
Plaintiff - Appellant,
6:08-cv-06307-HO
District of Oregon,
v.
Eugene
HOOKER CREEK ASPHALT
MEMORANDUM*
AND PAVING, LLC;
(Filed Oct. 24, 2013)
OREGON MAINLINE
PAVING, LLC; J.C. COMPTON
CONTRACTOR, INC.; KNIFE
RIVER CORPORATION NORTHWEST; CENTRAL
OREGON REDI-MIX, LLC;
HAP TAYLOR & SONS, INC.;
WILDISH STANDARD
PAVING CO.; HAMILTON
CONSTRUCTION CO.,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Oregon
Michael R. Hogan, District Judge, Presiding
Argued and Submitted October 7, 2013
Portland, Oregon

* This disposition is not appropriate for publication and is
not precedent except as provided by 9th Cir. R. 36-3.

23a
Before: SILVERMAN, W. FLETCHER, and CALLAHAN,
Circuit Judges.
Relator Michael Perry appeals from the district
court’s order dismissing relator’s second amended complaint with prejudice. The district court ruled that
Perry’s claims failed to satisfy the pleading requirements of Federal Rules of Civil Procedure 8(a) and 9(b).
We have jurisdiction under 28 U.S.C. § 1291, and we
affirm.
Relator generally alleges that defendants violated
the False Claims Act, 31 U.S.C. § 3729, because, among
other things, they knowingly and intentionally submitted bills to Oregon for work and materials that did not
meet state quality assurance standards, causing Oregon to submit false claims to the federal government
for reimbursement of federal highway apportionment
funds. Relator’s complaint, however, fails to allege with
sufficient particularity the “who, what, when, where
and how” of any alleged incident of fraud. See, e.g.,
United States ex rel. Cafasso v. General Dynamics C4
Systems, Inc., 637 F.3d 1047, 1054-55 (9th Cir. 2011)
(False Claims Act complaint must satisfy Federal
Rules of Civil Procedure 8(a) and 9(b)); Ebeid ex rel.
United States v. Lungwitz, 616 F.3d 993, 998 (9th Cir.)
(False Claims Act complaint must satisfy the heightened plausibility standard of Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009) and Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 570 (2007)), cert. denied, 131 S. Ct. 801 (2010).
Because we find that the relator has failed to meet the
burden of 9(b), we do not need to address if his factual
allegations are plausible under 8(a).

24a
Additionally, the district court did not abuse its
discretion in dismissing relator’s complaint with prejudice. The district court had previously granted relator
leave to amend after specifying the deficiencies of the
first amended complaint and identifying what relator
would have to include in any amendment. In light of
relator’s failure to cure and his concession that he
lacked the information to do so, any further amendments would have been futile. See, e.g., United States
ex rel. Lee v. Corinthian Colleges, 655 F.3d 984, 995 (9th
Cir. 2011), (citing Krainski v. Nevada ex rel. Bd. of Regents of Nevada System of Higher Education, 616 F.3d
963, 972 (9th Cir. 2010)), cert. denied, 131 S. Ct. 1678
(2011).
AFFIRMED.

Perry v. Hooker Creek Asphalt, No. 12-35278
W. FLETCHER, Circuit Judge, concurring in the result.
I concur in the majority’s disposition, but not with
its conclusion that Relator “fails to allege with sufficient particularity the ‘who, what, when, where and
how’ of any alleged incident of fraud.”
In his second amended complaint, Relator provides several specific examples of incidents that,
standing alone, are sufficiently detailed to satisfy the
requirements of Rules 8(a) and 9(b). However, while
these specific instances would state plausible claims
under the False Claims Act if brought individually,

25a
Relator offers them only as “representative examples”
in support of his allegations of a broader scheme of
fraud, a scheme he alleges spans more than 200 contracts.
Depending on the nature of the case, Rule 9(b)
does not require Relator to allege in detail all of the
facts supporting each and every instance of a false
claim. United States ex rel. Lee v. SmithKline Beecham,
Inc., 245 F.3d 1048, 1051 (9th Cir. 2001). Pleading by
means of representative examples may, in some circumstances, satisfy Rule 9(b)’s particularity requirement. Ebeid, 616 F.3d at 998. But Relator does not
allege the type of “cookie-cutter” scheme that is amenable to pleading by representative example. To the
contrary, the representative examples provided in his
second amended complaint describe a wide variety of
alleged violations. Because these examples do not succeed in alleging with particularity the details of an
overall scheme of fraudulent claims, the district court
did not err in dismissing Relator’s complaint.

26a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
)
)
) No. 6:08-cv-6307-HO
)
ORDER
Plaintiff,
)
(Filed Mar. 16, 2012)
vs.
)
HOOKER CREEK ASPHALT )
& PAVING, LLC, OREGON )
MAINLINE PAVING, LLC, )
WILDISH STANDARD
)
PAVING CO.; HAMILTON )
CONSTRUCTION CO.,
)
J.C. COMPTON CONTRAC- )
TOR, INC., HAP TAYLOR & )
SONS, INC., KNIFE RIVER )
CORP., and CENTRAL
)
OREGON REDI-MIX, LLC., )
UNITED STATES OF
AMERICA EX REL.
MICHAEL RAY PERRY,

Defendants.

)
)

In this qui tam action brought by relator Michael
Perry for defendants’ alleged violations of the United
States False Claims Act (FCA), Perry alleges that defendants consistently and systematically falsified the
character and quality of materials used in the construction of federally-funded highways.
Relator filed his initial complaint under seal on
October 3, 2008. The complaint remained under seal
while the United States investigated the allegations in

27a
the complaint to determine whether it would intervene. After the United States declined to intervene, the
court ordered the complaint unsealed on January 21,
2010, and required relator to serve defendants. After
several extensions of time to accomplish service, relator served defendants in December of 2010.
On March 4, 2011, defendants moved to dismiss.
Relator responded by seeking leave to amend the complaint and the court denied the first round of motions
to dismiss on April 27, 2011. Plaintiff filed an amended
complaint on April 30, 2011.
On June 13, 2011, defendants again moved to dismiss. After several extensions to brief the motions, the
court heard argument on November 15, 2011. The
court granted the motions to dismiss on December 13,
2011, but allowed relator 30 days to file an amended
complaint curing noted deficiencies.
Relator filed a second amended complaint on January 17, 2012, and a corrected second amended complaint on February 3, 2012. Defendants again move to
dismiss.1
In granting the previous motion to dismiss, the
court noted that the applicable provisions of the FCA
require either a lack of public disclosure or that relator
have direct and independent knowledge of the information on which the allegations are based that he
1

The court incorporates its previous legal findings and the
background information in its order dated December 13, 2012,
(#122) granting the last round of motions to dismiss with respect
to the current motions to dismiss.

28a
voluntarily provided to the Government before filing,
in order for the court to have jurisdiction. Order dated
December 13, 2012 (#122) at p. 11; See 31 U.S.C.
§ 3730(e)(4)(A) and (B) (2006). Relator previously alleged a public disclosure by him, requiring further detail as to the original source allegations. In the second
amended complaint, relator again alleges “no public
disclosure,” but again also alleges that he is an original
source. Second Amended Complaint (#126) at ¶¶ 5-6.
The court specifically noted,
the complaint is deficient with regard to allegations of subject matter jurisdiction because
it must include additional detail regarding
the original source assertion. The issue needs
to be pleaded because if there has been a public disclosure, timing and the content of the alleged disclosure by relator will be significant.
[footnote omitted] The motion to dismiss is
granted, without prejudice to amend, on this
basis.
Order (#122) at p. 11-12. Relator now alleges that
Relator had direct and independent knowledge of information important to disclosure
of several instances of fraudulent conduct
and false statements in connection with defendants’ contract compliance. Prior to the
initiation of this qui tam action in October
2008, relator voluntarily disclosed his information to state and federal officials, including
superiors at Oregon Department of Transportation (ODOT) throughout his employment;
(now deceased) state legislator Ben Westlund

29a
beginning in December 2005; the Fraud Division of the Oregon Secretary of State beginning in January 2006; the Federal Bureau of
Investigation beginning in March of 2007; and
the Department of Justice in February of 2005
and on dates subsequent to January, 2008.
Second Amended Complaint (#126) at ¶6. While this
might be sufficient for jurisdictional purposes, the second amended complaint contradicts the allegation in
that relator further alleges that he
. . . does not have access to the information, records and practices underlying
defendants’ bills for work performed and
materials provided relating to road construction and maintenance contracts at issue in
this lawsuit. Such information is in the exclusive possession or control of defendants and/or
the United States.
Each allegation herein is made upon information and belief and identifies a fact regarding which Relator has, based upon his
personal knowledge and experience working
for ODOT for 25 years, a reasoned basis to allege, but lacks complete detail.
Second Amended Complaint (#126) at ¶¶ 49-50.
In a nutshell, these allegations demonstrate that
plaintiff cannot plead the fraud allegations with

30a
particularity and that any further leave to amend
would be futile.2 As previously noted,
the allegations regarding the fraudulent conduct is woefully lacking in detail. Relator
generally alleges that defendants submitted
bills for highway construction work and materials in violation of specifications for quality
assurance. However, relator fails to allege
who committed the alleged misconduct (other
then the defendant companies generally),
what invoices contained false statements or
even the specific false statements themselves.
There are no allegations of when the allegedly
deficient work was done (or not done), or when
false records or statements were made. Other
than a general location for the contract itself,
relator fails to allege where the specific defective construction took place. Indeed, relator
alleges that he does not have access to records
underlying defendants billings for work performed.

2

Relator confirms an inability to conform to Fed. R. Civ. P. 9
and that this case is merely a fishing expedition in his response
to the motions to dismiss wherein he states: “While Relator has a
good faith basis to allege systemic wrongdoing by defendants in
violation of the Act, he need not personally know all the evidence
supporting the claim before discovery. And, indeed, in the event
that discovery shows that some contract work was not subject to
systemic false claims, realtor [sic] may amend the complaint. . . .
So long as Relator satisfies pleading requirements . . . [p]roof as
to the breadth of defendants’ scheme-whether it impacted some
or all of its work on FAHP contracts-should await discovery.” Response (#134) at p. 5, n. 2.

31a
Lack of knowledge of the billings is not
grounds for relieving relator from Rule 9’s
particularity requirement. See Ebeid ex rel
United States, 616 F.3d at 999 (it is not appropriate to jettison the particularity requirement simply because it would facilitate a
claim by an outsider especially because the
False Claims Act is geared primarily to encourage insiders to disclose information necessary to prevent fraud on the government).
In addition, even under circumstances of
cookie cutter fraud [when] a relator may be
able to avoid pleading all facts supporting
each and every instance of fraudulent billing,
Rule 9 still requires a relator to plead the
fraud with some level of specificity. Id.
In this case, the allegations go beyond
cookie cutter fraud that merely asserts repeated substantially similar fraudulent billing
practices. The amended complaint suggests a
wide variety of misrepresentations and fraudulent conduct regarding quality control and to
simply allege vague “examples” is insufficient
to apprise defendants of the particular conduct constituting fraud to permit a defense.
The motion to dismiss is granted because
the complaint utterly fails to state with particularity the circumstances constituting
fraud including the who, what, when, where,
and how of the misconduct. See Id. at 998.
Defendants are not only left in the dark regarding what specific conduct allegedly constitutes fraud, but also cannot determine if
specific tests, etc., that may have been nonconforming with various quality control

32a
standards were nonetheless non-fraudulent
because of, for instance, a change order or reduced payments. This is precisely why the federal rules require particularity.
Order (#122) at pp. 13-14.
In response to the order, relator adds few specifics
to his “examples,” and now challenges virtually every
claim/bill/request for payment by defendants for every
project over a ten year plus period. See Second
Amended Complaint at ¶¶ 51-55 (Since at least 2000,
on a regular basis, defendants made claims, representations, certifications and reports regarding the quality of work performed and materials provided and
submitted bills containing false and fraudulent
claims in order to obtain funds). Specifically relator
alleges
On each of the projects, at each location
and throughout the time period on which defendants have claimed to work on federal
projects, defendants . . . knowingly, consistently and systematically billed for work and
materials that did not meet standards and
specifications, and knowingly received payment in violation of laws and regulations required as a condition of payment. Defendants,
and each of them, knowingly, consistently and
systematically made false implied and express certifications as to the character and
quality of the materials provided on their projects, and they each knowingly made false

33a
records or otherwise engaged in fraudulent
conduct to cause FHWA to pay false claims to
ODOT on its contacts [sic].
Second Amended Complaint at ¶ 53.
The court previously directed relator to include in
the second amended complaint
the “who, what, when, where, and how” to support each element of the alleged False Claims
Act violations with regard to each false claim
supposedly made by each defendant as well as
the conduct alleged to be fraudulent. In addition, the amended complaint should include
specific facts regarding the intention of defendants in making alleged false statements
as well as the materiality of the false statements or conduct. Finally, the amended complaint should include specific facts regarding
the request for payment and to whom such requests were made.
Order (#122) at pp. 19-20. But relator still tries to
equate general allegations of substandard work to an
FCA claim. The complaint has gone from not just
lacking in detail to alleging virtually everything defendants have ever done is fraudulent, or so discovery
will apparently show. See Response (#134) at p. 5, n. 2.
(“Proof as to the breadth of defendants’ schemewhether it impacted some or all of its work on FAHP
contracts-should await discovery.”). Relator’s allegations are still woefully inadequate. See Ebeid ex rel.
U.S. v. Lungwitz, 616 F.3d 993, 1000 (9th Cir. 2010)

34a
(a global indictment of a defendant’s business is not
enough).
Moreover, even though the court determined that
the claims in this case were not amenable to representative example type pleading, relator chose again
to rely on such form of pleading. However, even the
examples provided lack the necessary detail to allege the FCA claims with particularity. See Second
Amended Complaint at ¶¶ 57-83. Of course, given realtor’s [sic] concession that he does not have access to the
information the billing, records and practices underlying defendant’s billing for work performed and materials provided relating to the road construction at issue,
this comes as no surprise. See Second Amended Complaint at ¶ 49.
The representative examples merely provide general time frames of the contracts themselves, the general work to be performed, that billing occurred in
violation of generalized specifications at some location
within the areas referenced in the contract and occasionally names a superintendent for the project, project manager, contractor technicians, or an Oregon
Department of Transportation inspector. The second
amended complaint still does not connect any person
to the alleged fraudulent conduct, or state when and
where the conduct occurred (other [sic] the general area
of the contract and the contract time frame). There are
no facts concerning the alleged false vouchers and cost
schedules caused to be presented to the federal government or when and by whom they were submitted. It is
simply not plausible that all defendants submitted

35a
falsified billings for all projects for all work for the
Oregon Department of Transportation over a ten year
period.
Furthermore, because there are insufficient allegations of the billings themselves, the complaint fails
to allege with the requisite specificity defendants’ intent vis-a-vis the federal government, what information was presented to the federal government (or
even the Oregon Department of Transportation for
that matter), or what role the information provided in
the federal government’s decision to pay (or even what
if anything the government paid). There are no allegations of facts about what was contained in the claims
for payment, whether the claims were paid with or
without adjustment, and whether the federal government viewed payment as contingent on the absence of
the alleged deficient testing or materials. Mere conclusory allegations that the elements of the statutes in
question are met are inadequate to meet the pleading
requirements in this case. Accordingly, the complaint
is dismissed.
The court has provided clear direction as to what
should be included in the second amended complaint.
Relator asks that in the event the court finds the second amended complaint to be lacking, the court should
consider granting leave to amend. However, as noted
above, leave to amend would be futile given relator’s
concessions that he lacks the information necessary to
plead his claims with particularity. In addition, relator
has now had three attempts at amending the complaint with the benefit of two separate rounds of

36a
motions to dismiss to highlight the deficiencies in his
complaint.
Leave to amend should be freely given when justice requires. Fed. R. Civ. P. 15(a)(2). Leave to amend
may be denied where there are repeated failures to cure
deficiencies by amendments previously allowed, undue
prejudice to defendants, and futility. Leadsinger, Inc. v.
BMG Music Publ’g, 512 F.3d 522, 532 (9th Cir. 2008).
Given the clear direction and ample notice as to the
deficiencies in pleading the FCA claims in this case,
the persistence of the deficiencies, and the futility of
further amendment given relator’s professed lack of
knowledge of the specifics of the alleged fraudulent
billings in this case, it is clear that plaintiff cannot
plead a set of facts sufficient to plead an FCA claim.
Accordingly, the complaint is dismissed with prejudice.
CONCLUSION
For the reasons stated above, defendants’ motions
to dismiss (#s 124, 128, and 130) are granted and defendant Knife River Corp.’s motion to dismiss (#132) is
granted to the extent it has not been withdrawn. This
action is dismissed.
DATED this 16th day of March, 2012.
/s/ Michael R. Hogan
United States District Judge

37a
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-35524
MICHAEL RAY PERRY,
United States of America ex rel., D.C. No.
Plaintiff-Appellant,
6:08-cv-06307-MC
District of Oregon,
and
Eugene
UNITED STATES OF
ORDER
AMERICA,
(Filed May 20, 2019)
Plaintiff,
v.
HOOKER CREEK ASPHALT
AND PAVING, LLC; et al.,
Defendants-Appellees.
Before: W. FLETCHER, BYBEE, and WATFORD,
Circuit Judges.
The panel has voted to deny the petition for panel
rehearing.
The full court has been advised of the petition for
rehearing and rehearing en banc, and no judge has requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
Appellant’s petition for rehearing and petition for
rehearing en banc (Dkt. 106) is DENIED.

38a
Jeremy L. Friedman,
CA Bar #142659
Attorney at Law
(pro hac vice)
2801 Sylhowe Road
Oakland, CA 94602
Telephone: (510) 530-9060
Facsimile: (510) 530-9087
jlfried@comcast.net

Derek C. Johnson,
OSB #88234
Johnson Clifton,
Larson & Schaller, P.C.
975 Oak St, Suite 1050
Eugene OR 97401
Telephone: (541) 484-2434
Facsimile: (541) 484-0882
djohnson@jclslaw.com

Attorneys for relator Michael Ray Perry
UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
EUGENE DIVISION
United States of America ) Case No. 6:08-cv-6307 HO
ex rel. Michael Ray Perry, ) THIRD AMENDED
) QUI TAM COMPLAINT
Plaintiff,
)
vs.
) [JURY DEMAND]
Hooker Creek Asphalt )
& Paving, LLC, Oregon )
Mainline Paving, LLC, )
J.C. Compton Contractor, )
)
Inc., Hap Taylor &
)
Sons, Inc., Knife River
Corporation – Northwest, )
)
and Central Oregon
)
Redi-Mix, LLC,
)
Defendants
)

39a
TABLE OF CONTENTS
INTRODUCTION ................................................ [41a]
JURISDICTION AND VENUE ........................... [43a]
THE PARTIES ..................................................... [44a]
FEDERAL-AID HIGHWAY PROGRAM............. [46a]
OREGON RECEIVES FEDERAL GRANT FUNDS .... [48a]
FEDERAL QUALITY CONTROL REQUIREMENTS ............................................................ [50a]
OREGON QUALITY CONTROL AND ASSURANCE................................................................ [51a]
CONTRACTOR OBLIGATIONS ........................ [52a]
CONTRACT DOCUMENTS ............................... [53a]
RELATOR’S GENERAL ALLEGATIONS .......... [55a]
INFORMATION IN DEFENDANTS’ EXCLUSIVE POSSESSION ......................................... [58a]
DEFENDANTS’ CONTRACTS ........................... [59a]
VIOLATIONS ...................................................... [63a]
INDIVIDUAL CLAIMS ....................................... [65a]
Hooker Creek Asphalt and Paving .................. [66a]
South Bend Weigh & Safety Station project
(Contract No. 12876) .................................... [66a]
US 26: Badger Creek-Sidwalter Rd. project
(Contract No. 12924) .................................... [68a]
O’Neil Highway project (Contract No. 12925)..... [69a]
Mt. Hood-Chemult project (Contract No.
12990)............................................................ [71a]

40a
Willowdale-Antelope project (Contract No.
12994)............................................................ [73a]
US 26: Laughlin Road to Marks Creek project (Contract No. 13137).............................. [75a]
Bend-Sisters Preservation project (Contract No. 13151) ............................................ [77a]
OR 58: US 97 Overcrossing (Contract No.
13311)............................................................ [79a]
US 97: China Hat Rd.-Baker Rd./Lava
Butte project (Contract No. 13334) .............. [81a]
US26: Warm Springs River project (13257) .... [86a]
Oregon Mainline Paving, LLC ......................... [87a]
Redmond Reroute, Unit 1, Phase 2 project
(Contract No. 13302) .................................... [87a]
J.C. Compton Contractors ................................ [94a]
Biggs-Wasco & Grass Valley project (Contract No. 12907) ............................................ [94a]
Cotton Wood-Freemont project (Contract
No.12985) ...................................................... [96a]
Hap Taylor/Knife River .................................... [98a]
Grandview Dr.-Nels Anderson Place project
(Contract No. 12884) .................................... [98a]
US 97: Riley Bridge Bend project (Contract
No. 13032) ..................................................... [99a]
Or 16: Glacier-Highland Couplet project
(Contract No. 13072) .................................... [100a]
US 97/26 Willow Creek-Depot Rd. project
(Contract No. 13077) .................................... [103a]

41a
US 97: Redmond Reroute, Phase 1, Unit 1B
(Contract No. 13165) .................................... [105a]
OR 31: Silver Creek Bridge project (Contract No. 13185) ............................................ [106a]
US 97 @ S. Century Drive, Sunriver project
(Contract No. 13189) .................................... [107a]
OR 126: Prineville Crooked River Bridge
(Contract No. 13200) .................................... [109a]
SPECIFICATIONS AND CONTRACTS ............. [110a]
ADDITIONAL ALLEGATIONS OF SYSTEMIC
VIOLATIONS ................................................... [114a]
DAMAGES ........................................................... [118a]
CLAIM FOR RELIEF .......................................... [119a]
PRAYER ............................................................... [122a]
[1] INTRODUCTION
1. This is a qui tam action brought by relator
Michael Ray Perry (“Perry”), arising out of defendants’
violations of the United States False Claims Act, 31
U.S.C. § 3729 et seq. Relator alleges defendants knowingly made false claims, created false records and engaged in fraudulent conduct related to materials and
contract performance on federal transportation contracts for the construction and maintenance of Interstates, U.S. Routes, and Oregon Routes within the state
of Oregon. As a result of defendants’ False Claims Act
violations, the United States has been damaged in the
amount of federal funds expended on the projects and
contracts through the Federal Aid Highway Program

42a
(FAHP), or through appropriations and allocation
acts/funds (DOT Appropriations Act 71), administered
by the Federal Highway Administration (FHWA).
2. Relator brings this action in the name of, and
on behalf of, the United States government, seeking to
recover civil penalties, treble damages, attorneys fees,
relator’s expenditures, and other relief permitted under the False Claims Act.
3. This action focuses primarily on false claims
for federal funding of surface transportation projects
containing substandard and/or defective components.
As alleged herein, defendants knowingly, consistently
and systematically failed to conduct appropriate tests
on appropriate materials, failed to report inadequate
results, doctored test results to appear passing, failed
to rework sections of failing materials, allowed substandard failing materials to be used to complete projects, falsely and fraudulently induced contract change
orders to cover up failing materials, and failed to use
accurately calibrated equipment to achieve accurate
test results. As a result of such conduct, they have
made and caused to be made false claims, statements
and records, including express and implied false certifications of compliance with contract document requirements. Because compliance with such requirements
is a prerequisite for payment on federal projects, submission of billings to the state for purposes of claiming
federal funds, with the intent to cause the federal government to pay claims to the state for reimbursement
on the contractors’ billings, violated the False Claims
Act.

43a
[2] 4. This Third Amended Complaint follows
upon the Ninth Circuit’s Order and Memorandum of
March 27, 2014, reversing the district court’s dismissal
of the Second Amended Complaint and remanding to
allow an opportunity to amend. Herein, Perry narrows
the claims asserted, converting allegations of False
Claims Act violations that served as representative examples of systemic fraud into individual claims. See
¶¶55 – 153. Further, he alleges additional facts of systemic False Claims Act violations by these defendants
occurring outside ODOT Region, that were not contained in the Second Amended Complaint, and which
do not rely exclusively on the pleaded violations as representative examples. See ¶¶156 – 161.
JURISDICTION AND VENUE
5. This Court has jurisdiction pursuant to 31
U.S.C. § 3730, 31 U.S.C. § 3731, 42 U.S.C. § 1988, and
28 U.S.C. § 1331, 1343, 2201 and 2202.
6. There has been no “public disclosure,” as that
term is used in 31 U.S.C. § 3730(e)(4)(A), of the allegations or transactions upon which this action is based.
There was no prior public disclosure of the allegations
or transactions upon which this action is based in any
governmental report, audit, hearing, or investigation,
or in the news media. Relator did not base the allegations of this action upon any such public disclosures.
7. Although there has been no public disclosure
under the Act, relator is an “original source” as that
term is used in 31 U.S.C. § 3730(e)(4)(B) of information

44a
set out in this Complaint. Relator had direct and independent knowledge of information important to disclosure of several instances of fraudulent conduct and
false statements in connection with defendants’ contract compliance. Prior to the initiation of this qui tam
action in October 2008, relator voluntarily disclosed
his information to state and federal officials, including
superiors at Oregon Department of Transportation
(ODOT) throughout his employment; (now deceased)
state legislator Ben Westlund beginning in December
2005; the Fraud Division of the Oregon Secretary of
State beginning in January 2006; the Federal Bureau
of Investigation beginning in March of 2007; and the Department of Justice in February of 2005 and on dates
subsequent to January, 2008.
[3] 8. Venue is appropriate in this district pursuant to 28 U.S.C. § 1391(b)-(c) and 31 U.S.C. § 3732(a)
because defendants have offices, can be found, and
transact business here, and because some of the acts
complained of took place in this district.
THE PARTIES
9. Relator Michael Ray Perry was at all material times a natural person residing in the State of Oregon. Perry was employed by ODOT in Region 4, Bend,
Oregon, from 1983 until January 2008, when his employment was terminated by ODOT. Since 1996, Perry
has held positions integrally involved in ensuring contract compliance.

45a
10. Defendant Hooker Creek Asphalt & Paving, LLC (“Hooker Creek”) is an Oregon limited liability corporation engaged in the business of road
construction and hired by ODOT to perform work on
federal road construction and repair projects.
11. Defendant Oregon Mainline Paving, LLC
(“Oregon Mainline”) is an Oregon limited liability corporation engaged in the business of road construction
and hired by ODOT to perform work on federal road
construction and repair projects.
12. Defendant J.C. Compton Contractor, Inc.
(“J.C. Compton”) is an Oregon corporation engaged in
the business of road construction and hired by ODOT
to perform work on federal road construction and repair projects.
13. Defendant Hap Taylor& Sons, Inc., was at
relevant times herein an Oregon corporation engaged
in the business of road construction and hired by
ODOT to perform work on federal road construction
and repair projects. It is now an assumed business
name after merging with Knife River Corporation,
Northwest, effective Dec. 31, 2009.
14. Defendant Knife River Corporation – Northwest, is an Oregon corporation which has merged with
defendant Hap Taylor & Sons and continues to operate
that business under the assumed name of Hap Taylor
& Sons.
15. Defendant Central Oregon Redi-Mix, LLC
is an Oregon limited liability company registered by

46a
Knife River Corporation on June 11, 1998. During the
relevant time period, defendant Central Oregon RediMix was hired by ODOT to perform work on federal
road construction and repair projects in partnership
with Hap Taylor & Sons., Inc.
[4] 16. As used herein, defendants Hap Taylor &
Sons, Knife River Corp. – Northwest and Central Oregon Redi-Mix are collectively referred to herein as
“Hap Taylor.”
FEDERAL-AID HIGHWAY PROGRAM
17. FAHP is administered by FHWA, part of the
United States Department of Transportation (USDOT).
FAHP provides federal reimbursement for construction costs incurred by the state in the construction and
improvement of the National Highway System, urban
and rural roads, and bridges. In order to be eligible
to participate in FHWA-funded projects, states must
comply with federal project approval and oversight, including the submission of plans, specification and estimates (23 U.S.C. §106).
18. By statutory mandate (23 U.S.C. §109), Secretary of the USDOT must ensure plans and specifications so each proposed highway project is constructed
in accordance with criteria best suited to accomplish
safety and durability. This federal law requires implementation of construction standards approved by the
Secretary in cooperation with the State transportation
departments adequate to enable highway projects to

47a
accommodate the types and volumes of traffic anticipated for such project for a twenty-year period.
19. Pursuant to this statutory mandate, FHWA
has adopted express regulatory requirements governing the responsibilities of the states, contractors and
recipients of FAHP funds. These include design standards for highways (23 C.F.R. Part 625); requirements
for maintaining of records and reporting of materials
and supplies used on federal highway projects (23
C.F.R. §633.101); contract procedures to be followed as
a condition of federal eligibility (23 C.F.R. Part 635,
Subpart A); procedures relating to product and material selection and use (Subpart D); proscription against
“false statement, false representation, false report or
false claim with respect to the character, quality, quantity, or cost of any work performed or to be performed,
or materials furnished or to be furnished” (23 C.F.R.
§635.119); and inspection and approval requirements
including extensive quality assurance procedures (23
C.F.R. Part 637, Subpart B) and a certification of compliance with sampling and testing requirements (Appendix A to Subpart B).
[5] 20. Funding for FAHP begins when Congress
develops and enacts surface transportation authorizing legislation. Through such appropriations, federal
funds are made available to the Secretary of USDOT
and FWHA [sic] for highway construction programs.
These funds are held in a general fund or the Highway
Trust Fund.

48a
21. FAHP is a reimbursement program. The
United States does not apportion cash to States. Instead, states are notified of a balance of Federal funds
available for their use on federally-eligible construction projects. Under FAHP, States incur obligations,
begin projects, and then file claims with the federal
Treasury to obtain FHWA approval for payment of federal share reimbursement of eligible costs incurred
and claimed.
OREGON RECEIVES FEDERAL GRANT FUNDS
22. Since at least as early as 1997, Oregon has
entered into agreements with FHWA for work on
FAHP projects throughout the state. Subsequent to the
approval of the projects, the state has followed the ordinary sequence of events in order to claim federal
funds. These have included:
a.

Work on highway construction projects is
performed by contractors;

b.

Contractors submit bills to the State,
which processes bills for work throughout
the state;

c.

Vouchers for the bills are presented to
FHWA for review and approval;

d.

FHWA certifies the State’s claim for payment;

e.

Certified schedules are submitted to the
Treasury Department;

49a
f.

Treasury transfers the federal share of
costs for all projects on the vouchers as
reimbursement to the State.

23. Since at least as early as 2000, defendants
have entered into contracts with ODOT to work on federal highway construction projects, they have performed work on those contacts and have otherwise
submitted bills to ODOT for the work claimed to have
been performed on federally-eligible projects. Defendants’ submission of bills are the necessary starting
point by which the state claims federal funds, and the
bills and records are submitted by defendants with
the intention to cause the state to present vouchers
and [6] certified schedules to the federal Government
for purposes of obtaining federal funds. Claims, statements and reports by contractors of work performed
and material provided on FAHP projects are a direct
causal factor in the payment of FAHP claims to the
state.
24. Once an obligation to reimburse a cost of a
highway project is made, the Federal government must
reimburse the States when bills become due. An obligation is the Federal Government’s commitment to pay
its share of project costs. Federal shares are specified
in authorizing legislation, but most projects receive an
80% Federal share, where the difference is matched by
State and local money. Federal shares for interstate
systems and Federal Lands Highway projects usually
range from 90% to 100% of costs.

50a
25. Although the federal government funds most
of the costs for each project, the Government allocates to the State’s highway department the decisionmaking power in matters related to contracts and
agreements for highway construction. Such an allocation is predicated on the State’s agreement with the
Government to comply with federal law and regulations, and submit for audit and review by the Federal
Highway Administrator.
FEDERAL QUALITY CONTROL REQUIREMENTS
26. Federal regulations require States to implement policies and procedures designed to assure the
quality of highway construction projects. Title 23 of the
Code of Federal Regulations pertaining to highways
prescribes policies, procedures and guidelines for highway construction to assure the quality of materials and
construction in all FAHP projects in the National
Highway System. 23 C.F.R. § 637.201.
27. Section 637.205 required ODOT to develop a
quality assurance program so that materials and
workmanship incorporated into each Federal-aid highway construction project on the national highway system is in conformity with the requirements of the
approved plans and specifications.
28. Pursuant to § 637.207, ODOT’s quality assurance program was required to provide for an acceptance program and an independent assurance
program.

51a
a.

The acceptance program must consist of:
(A) frequency guide schedules for verification sampling and testing; (B) identification of the specific location [7] in the
construction project where verification
sampling and testing is to be accomplished; (C) identification of the specific
attributes to be inspected which reflect
the quality of the finished product.

b.

The independent assurance program evaluates the qualified sampling and testing
personnel and the testing equipment. The
testing equipment is evaluated by calibration checks, split samples, or proficiency
samples. 23 C.F.R. §637.207(a)(2)(I).

OREGON QUALITY CONTROL AND ASSURANCE
29. Pursuant to 23 C.F.R. 630.112, Oregon accepted and agreed to comply with the applicable terms
and conditions set forth in Title 23 and FHWA regulations, the policies and procedures promulgated by
FHWA relative to the designated project, and all other
applicable Federal laws and regulations. For Oregon
to be reimbursed federal funds for construction and
maintenance of surface transportation, ODOT and its
contractors must follow these Federal and State policies, procedures, and guidelines. Contractors engaged
in federally-funded highway construction projects, as a
condition of receiving payment, must adhere to contract obligations set forth in contract documents.

52a
30. Pursuant to Federal obligations, ODOT administers a system for monitoring and verifying contractors’ efforts at quality control through a Quality
Assurance program. ODOT’s quality assurance program consists of three separate and distinct subprograms: Quality Control, involving the contractor’s
own operational techniques and activities performed
or conducted in order to meet contract requirements;
Verification, whereby ODOT performs sampling and
testing to validate the quality of the product; and Independent Assurance, intended to provide an unbiased
and independent evaluation of all the sampling and
testing procedures used in the acceptance program.
CONTRACTOR OBLIGATIONS
31. Although the State sets these standards
and specifications, and implements its own quality assurance program, private contractors are ultimately
responsible for quality control. ODOT’s quality assurance monitoring is sporadic. It has limited field resources [8] in relation to the contract work, and it does
not detect all non-compliance or take effective remedial steps on all occasions when non-compliance is
found. ODOT’s limitations in enforcement of quality
assurance do not relieve contractors of quality control
obligations.
32. Contractors are required to employ welltrained certified technicians to perform field-testing of
materials for quality control, including certified technicians for aggregate, asphalt, embankment and base,

53a
density, mix design, concrete control, concrete strength
testing, and quality control. To validate compliance
with the specifications, technicians are required to
have plans and specifications on site, inspect materials, conduct required sampling tests, monitor activities
and performance, perform analysis and make or recommend changes or adjustments, verify the accuracy
of materials data, and submit written reports. Contractor quality control technicians must notify the contractor and the Engineer immediately when materials are
not compliant with specifications.
33. Project Managers are delegated authority and
responsibility to enforce contract provisions. Contractors submit quality control documentation and records
to Project Managers, who rely upon such documentation to oversee the Quality Control Compliance Specialist, to ensure that the project meets requirements
specified in the contract and that all required tests are
performed, documented and submitted. Program Managers rely upon each contractor’s submissions to ensure quality control requirements are met.
CONTRACT DOCUMENTS
34. In Oregon, contract documents include contract specifications, the Manual of Field Test Procedures (“Brown Book”), and standard and supplemental
specifications. The Brown Book mandates that all personnel responsible for performing and reporting on
tests required on ODOT projects must be certified.

54a
35. The Brown Book contains quality assurance
guidelines and defines the relative oversight responsibilities for quality assurance – setting forth specifications, standards and procedures for the performance of
work and quality of products. Certification requirements in the Brown Book apply to all project personnel
working as technicians for the State, contractors, or
consultants.
[9] 36. Oregon also maintains the Oregon Standard Specifications for Construction handbook, known
as the “Wine Book.” The Wine Book dictates and regulates the quality of materials used in road construction
projects in Oregon.
37. Section 00165 – Quality of Materials – prohibits the use of materials that do not conform to approved specifications as set by the Engineer. The
specifications for field tested and non-field tested materials are set out in the Brown Book. Materials that
are not field-tested can be found in the Nonfield Tested
Materials Acceptance Guide.
38. Under ODOT’s contract documents, contractors are required to do the following: furnish a written
quality control plan; furnish and use materials of the
specified quality; provide ODOT approved technicians
and laboratories; perform quality control of all materials used on ODOT construction projects; sample and
test materials using appropriate devices and procedures; perform all required testing and provide true
and accurate results to ODOT for verification; document and sign all test results as required on ODOT

55a
forms; and retain testing samples until the Project
Manager authorizes release.
RELATOR’S GENERAL ALLEGATIONS
39. In roadway construction, it is crucial that the
foundation is structurally sound, having met minimum construction specification requirements. It is further critical that the incremental addition of layers of
subsequent materials also meets the minimum construction specification requirements. Failure to follow
this step-by-step, bottom to top process renders the
foundation unable to support subsequent layers in a
manner which allows for maximum longevity of the
wearing surface. These materials are life limited, and
failure to meet specifications in the orderly construction process greatly diminishes the time frame in
which they break down, causing roadways to fail prematurely.
40. Foundation soundness is dependent on two
equally important elements. The first element is the
materials, including soil, aggregate, pavement, concrete, and asphalt. The second element is the consolidation of materials, which requires materials to be
layered and compacted to a minimum construction
specification requirement. Specifications for requirements such as force, temperature control, binder additives, [10] compactor size, and minimum coverage are
all outlined in the contract documents, with state and
federal regulations applying to each project.

56a
41. Incremental steps are crucial to the road construction process. If the base levels fail specification,
subsequent levels of construction will also experience
failure. In essence, without a proper foundation, the
entire project is in jeopardy of failure.
42. From May 1999 until his termination in January 2008, Perry held the position of Assistant Quality
Assurance Coordinator (QAC), with the following responsibility to test construction materials; evaluate
test results for compliance with specifications; maintain records of received material samples and test results; conduct research studies on materials; assign
and review work; compute and analyze test results;
maintain, repair and calibrate laboratory and field testing machines and equipment; perform nuclear gauge
calibration and/or verification of calibration for nuclear moisture-density gauges; observe, monitor, and
counsel subordinates in their performance to promote
accuracy and adherence to specified procedures; review contractor Quality Control programs including
Soils, Aggregate, PCC paving, Structural Concrete, Asphalt, and other highway construction materials; and
review and recommend any changes to the QAC regarding contractor requests for changes during production.
43. During the period of time of employment,
Relator observed and documented consistent and systematic false statements and fraudulent conduct by
contractor defendants with respect to quality control
obligations. False statements and fraudulent conduct
observed and documented by Relator in a consistent

57a
and systemic manner included the following: contractors’ failure to conduct appropriate tests on appropriate materials; knowing omission of inadequate results;
doctoring of test results to appear passing; failure to
rework sections of materials known to be failing; allowance of substandard failing materials to be used
to complete projects; obtainment of contract change orders on the basis of false information or to cover up
failing materials; and failure to use accurately calibrated equipment to achieve accurate test results.
[11] 44. As a result of the systematic and consistent false statements and fraudulent conduct,
Oregon’s surface transportation at issue in this case
is substandard and defective, and was built in violation of contractually mandated specifications. Noncompliant materials and shoddy workmanship used
on lower levels and employed in previous steps of construction have infected Oregon’s roadways and bridges,
financed primarily through federal funds. Such systematic and consistent non-compliance with specifications and contract requirements has left the United
States paying for a system of Oregon roads and highways of a substandard character and quality far below
the level of workmanship which the Government was
entitled to receive.
45. Roadways are constructed of soils, aggregate,
PCC paving, structural concrete, asphalt, and other
construction materials (collectively “materials”). Failing,
noncompliant materials of the roadway prism (3-D) include, but are not limited to, the following: those used
in roadbeds (complete excavations and embankment

58a
for the sub-grade, including ditches, side slopes, and
slopes rounding); bases (course of specified material of
specified thickness placed below the pavement); surfacing (course of material on the traveled way, auxiliary lanes, shoulders, or parking areas for vehicle use);
and bridges (a single or multiple span structure, including supports that carry vehicles, pedestrians, or
utilities on a roadway, walk or track over a watercourse, highway, railroad or other feature).
INFORMATION IN DEFENDANTS’
EXCLUSIVE POSSESSION
46. Much factual information, records, and practices related to these allegations are in the exclusive
possession of defendants, the State and the federal
Government.
47. Relator does not have access to the information, records and practices underlying defendants’
bills for work performed and materials provided relating to road construction and maintenance contracts at
issue in this lawsuit. Such information is in the exclusive possession or control of defendants and/or the
United States.
48. Each allegation herein is made upon information and belief and identifies a fact regarding which
Relator has, based upon his personal knowledge and
experience working for ODOT for 25 years, a reasoned
basis to allege, but lacks complete detail.

59a
[12] DEFENDANTS’ CONTRACTS
49. Since at least 2000, defendants have entered
into contracts and subcontracts to perform work on
federally-funded projects, for the purpose of obtaining
federal funds though the cost-reimbursement process
administered by the state. The following list of contracts and projects constituting the individual claims
presented, including the contract number, the project
name (which identifies the location where the work by
each defendant was performed), the award date (which
is the date that the contractor was sent a letter informing it that its bid had been approved), the contract
amount that the contractor had claimed on the project,
and the Third Note date (which is the date that the
contractor has completed all work including cleanup,
removal of equipment and material, and has submitted
all required documentation).
Project
ContractName

Award
Date

Performed
to Date

Third
Note

Hooker Creek
12876

South Bend 07/14/03 $1,547,656.94 07-Jun-06

12924

US26:
11/06/03 $1,605,850.77 31-Oct-05
Badger Cr./
Sidwalter

12925

O’Neil
Highway

12990

Mt. Hood-Chemult project – subcontract with
Wildish Standard Paving

11/18/03 $2,898,382.87 18-Jan-06

60a
12994

Willowdale-Antelope project – subcontract w/
Carter & Co.

13137

US26:
Laughlin/
Marks Cr.

13151

Bend &
06/08/05 $2,791,742.58 11-Apr-07
Sisters
Preservation

13311

OR 58: US 97 Overcrossing – subcontract w/ MJ
Hughes

13334

US97:
03/09/07 $4,675,231.90 21-Aug-08
China
Hat/Baker/
Lava

13257

US26:
05/30/06 $3,016,033.13 17-Oct-07
Warm
Springs River

05/13/05 $3,059,753.98 26-Sep-06

J.C. Compton
12907

Biggs/Wasco 10/30/03 $5,360,628.59 09-Feb-07
& G.V./
Shaniko

12985

US97:
04/07/04 $4,178,178.08 24-Feb-06
Cottonwood/
Fremont

Oregon Mainline
13302

US97
Redmond
Reroute 1

12/05/06 $31,402,366.0024-Nov-09

61a
[13] Knife River
12884

Grandview/ 08/08/03 $1,172,134.76 24-Jun-05
Nels
Anderson

13032

US97: Riley 08/13/04 $167,102.20 17-Jan-06
Bridge
(Bend)

13072

OR126:
GlacierHighland

12/22/04 $9,814,153.68 09-Jul-09

13077

US97/26:
Willow Cr.
Br./Dep.

12/22/04 $4,616,545.60 20-Oct-06

13165

US97:
Redmond
Reroute 1

07/06/05 $6,161,626.54 29-Feb-08

13185

OR 31: Silver Creek Bridge project – subcontract
w/Steve Coats Const.

13189

US97 S.
12/06/05 $9,256,219.10 26-Aug-08
Century Dr./
Sunriver

13200

OR 126: Prineville Crooked River Bridge – subcontract w/JAL Construction

50. Since at least 2000, defendants have claimed
money on these and other federally-funded projects
and caused the state to present claims for reimbursement for work performed and materials used on such
projects. On a regular basis, since the time of the award
date, up to and subsequent to the Third Note date, defendants made claims, representations, certifications

62a
and reports regarding the quality and quantity of the
work performed and materials provided. On a regular basis, subsequent to the presentment of the bills,
reports, statements, certifications and claims by the
contractors, ODOT has presented vouchers to the
United States for payment of funds as reimbursement
of the federal share of the amounts paid to defendants
on each project. On a regular basis, each voucher submitted by the state was approved and paid by the federal Treasury based upon the underlying contractors’
billings. Defendants’ claims, billings, reports, statements and certifications were material and in fact essential to the process by which claims for federal funds
were presented for payment and were paid to the state
as reimbursement for funds paid to defendants.
51. Each bill or request seeking payment for
work performed on these and other federally-funded
project constitutes a “claim,” under former §3729(b)
(“any request or demand, whether under a contract or
otherwise, for money or property which is made to a
contractor, grantee, or other recipient, if the United
States Government provides any [14] portion of the
money . . . requested or demanded, or will reimburse
such contractor, grantee or other recipient for any portion of the money which is requested or demanded”)
and current §3729(b)(2) (same, “if the money or property is to be spent or used on the Government’s behalf
or to advance a Government program or interest).

63a
VIOLATIONS
52. Since at least 2000, defendants, and each
of them, knowingly, consistently and systematically
made false and fraudulent claims and statements in
order to obtain FAHP and other federal funds, and to
cause such funds to be paid to ODOT in connection
with federal highway projects. On each of the projects
identified below, at each location and throughout the
time period on which defendants claimed to have performed work, projects, defendants, and each of them,
knowingly, consistently and systematically billed for
work and materials that did not meet material standards and specifications established pursuant to the
20-year safety and durability federal mandate. Said
defendants had actual knowledge they were submitting bills for materials and work that did not meet
material specifications, and/or acted with deliberate
ignorance and reckless disregard as to whether material specifications had been met. Defendants, and each
of them, knowingly, consistently and systematically
made false implied and express certifications as to the
character and quality of the materials provided on
their projects, and they each knowingly made false records or otherwise engaged in fraudulent conduct to
cause FHWA to pay false claims to ODOT, and to cause
ODOT to pay defendants.
53. In addition to the false express and implied
certifications of compliance with material specifications, defendants also made affirmative material false
statements, created or caused to be created material
false records, and engaged in a course of fraudulent

64a
conduct, on each of the contracts identified herein and
others. Said actions constituted a scheme, policy and
pattern of practice, pursuant to which defendants knowingly supplied and used construction, and sought payment for, materials (embankment, aggregate, concrete,
and asphalt pavement) which did not meet the ingredient proportions and densities specified by contract
documents specifications.
[15] 54. In particular, defendants, and each of
them, knowingly, consistently, and systematically made
and caused to be made false and misleading statements and certifications on federal highway and bridge
contracts by:
a. Failing to conduct and/or report its own Quality
Control – pursuant to a duty which itself is a material
requirement of regulations and contract specifications.
These required actions would have revealed and disclosed substandard materials and performance on federally funded highway projects;
b. Creating false and misleading records, and engaging in misleading conduct, in connection with its
own Quality Control records and reports, in order to
hide and cover up non-compliance with material specifications;
c. Making false and misleading representations to ODOT officials responsible for conducting
Quality Assurance over federally funded highway
projects, in order to evade enforcement of specifications through state mechanisms, and otherwise cover
up non-compliance;

65a
d. Making false statements and engaging in
fraudulent conduct with Project Managers on federally
funded highway projects, in order to obtain contract
change orders to cover up substandard construction
materials and efforts, and to otherwise avoid enforcement of contract remedies through state mechanisms.
f. [sic] Colluding and entering into agreements
with ODOT personnel, to the effect that defendants
would provide highway construction materials which
did not comply with material specifications, and ODOT
personnel would look the other way, in order to cover
up substandard materials and avoid enforcement of
contract remedies.
g. [sic] Colluding and entering into agreements
with Project Managers and their staff, to the effect that
defendants would provide highway construction materials which did not comply with material specifications,
and Project Managers would nonetheless approve of
contract change orders and contract payments, despite
the failure to comply with material specifications and
regulations.
[16] INDIVIDUAL CLAIMS
55. Relator alleges the following facts and circumstances constituting a basis for finding False
Claims Act violations on each of the following contracts
and projects.

66a
Hooker Creek Asphalt and Paving.
South Bend Weigh & Safety Station project (Contract No. 12876)
56. Hooker Creek Asphalt and Paving was awarded
its bid on the South Bend Weigh & Safety Station project (Contract No. 12876) on July 14, 2003, and it closed
out its work on or about June 7, 2006. The project
called for the building of a weigh station south of Bend
on Highway 97. During the above-referenced dates, defendant submitted bills for highway construction work
and materials in violation of specifications for QA Program (Base Aggregate, Subbase, and Shoulders) and
Shaping and Compacting. Kris Karpstien was the superintendent on the project.
57. In the Fall of 2003, in approximately October,
defendant ignored failed verification tests, including a
QV1 density test of base aggregate performed by relator. Hooker Creek knowingly failed to identify all of the
failing areas, as required. Defendant falsified its own
density verifications in Quality Control records, which
falsely showed 100% passing verifications when the
project had actually failed three out of five QV tests.
Defendant’s technicians knowingly reported false test
results by selective picking spots for testing, rather
than using predetermined test locations; and by testing at an incorrect depth, eight inches instead of six.
58. Hooker Creek also knowingly failed to rework the failed area as required. After being notified of
the failed ODOT verification, defendant merely rerolled over just the failed test spot (approx. 5’ x 5’), and

67a
it requested another verification test from QA. Subsequent testing showed that verification failed too. Defendant knowingly failed to identify the entire failing
area and rework it until it met specifications.
59. After learning of relator’s role in disclosing
substandard materials, revealing defendant’s refusal
to retests and rework, and relator’s refusal to test the
mocked-up location, defendant knowingly colluded and
conspired with ODOT personnel, in order to [17] cause
relator to be removed from the project. Such actions
were taken, and agreements made, in order to further
cover up defendant’s failure to provide conforming material, and obtain payment wrongfully on federally
funded highway projects.
60. In the same time period, Hooker Creek similarly billed for work and materials in violation of specifications requiring Continuously Reinforced Concrete
Pavement. Hooker Creek’s first trucks to arrive on
the project did not have appropriate aggregate and
did not meet fracture specifications. Hooker Creek’s
QCT knowingly failed to reject the loads, incorporating them into the project. On information and belief,
Hooker Creek on the same project also failed to test
earthwork according to quantity requirements.
61. Hooker Creek’s falsities and fraudulent conduct led directly to the knowing delivery of substandard product. The final top-list of pavement was added
in the spring of 2004, but the failing areas never
achieved proper compaction. As a result, the failing areas failed again, requiring repairs in the summer of
2006.

68a
US 26: Badger Creek-Sidwalter Rd. project (Contract No. 12924)
62. Hooker Creek was awarded its bid on the US
26: Badger Creek-Sidwalter Rd. project (Contract No.
12924) on November 6, 2003. This project entailed
building passing lanes on Highway 26, on the Warm
Spring Reservation. Hooker Creek completed the project by October 31, 2005. During the three years on the
project, Hooker Creek submitted bills for work and materials in violation of specifications for the QA Program
involving Earthwork. The Superintendent was Dave
McDonald.
63. Between February and July, 2004, Hooker
Creek conducted 26 Quality Control tests, despite the
2004 specifications requirement that it conduct 44
such tests. Further, although required to test different
locations, Hooker Creek used several tests on the exact
same area. In addition, the Quality Control Technician
knowingly failed to perform sufficient testing of the
amount of materials.
64. On the same project, during the same time
period, Hooker Creek billed for materials in violation
of specifications for HMAC Production QC/QA and
it submitted false test results reflecting passing volumetrics. For example, voids failed (reporting [18] 2.9
when allowable tolerance was 3.5 to 5.5); and FVA
failed (reporting 81, when allowable tolerance is 65 to
75).

69a
O’Neil Highway project (Contract No. 12925)
65. Hooker Creek was awarded a contract bid on
the O’Neil Highway project (Contract No. 12925) on or
about November 18, 2003. This was a pavement overlay project on the O’Neil Highway, between Redmond
and Prineville. Between the time of the award and the
project completion January 18, 2006, Hooker Creek
submitted bills for work and materials in violation of
specifications concerning HMAC Production QC/QA.
Mark Roberts was the Superintendent.
66. In July and August of 2004, Hooker Creek
created and submitted false test results purporting
to show passing compaction and volumetrics. At that
time, materials provided had excessively high compaction numbers and failed volumetric properties. These
included the following specification requirements.
Each specification, taken by itself and considered in
conjunction with the other specifications, was adopted
pursuant to the 20-year federal mandate for safety and
durability, and a material requirement of defendant’s
contracts.
a. QV1, dated 07/26/04, (Nuclear compaction
Test Report) shows 3 excessively high readings and
one low reading. High readings (96.7%, 95.6% and
97.2%) indicate the volumetric properties are out of
specification, requiring Hooker Creek to notify the Project Manager. TM 306 (notify PM of readings higher
than 95%). On information and belief, Hooker Creek
failed to do so.

70a
b. QV 1 (voids worksheets) failed with a reported 1.1; where allowable tolerance is 3.5 to 5.5.
c.

VFA failed with a reported 91; tolerance is

65 to 75.
d. Dust-to-oil failed with a reported 1.98; allowable tolerance is 0.80 to 1.60.
e. QV1, dated 08/05/04, (Nuclear Compaction Test Report) shows four excessively high readings
(96.1%, 96.5%, 94.8%, and an average of 94.6%). High
readings indicate the volumetric properties are out of
specification.
[19] f. QV4 (field worksheet) failed specification for the 12.5 (1/2”) sieve with a reported 91; when
allowable tolerance is 79-89.
g. QV2, dated 08/23/04, (Nuclear Compaction Test Report) shows 2 excessively high readings
(97.3%, with a high average at 95.8%).
h. QV3, dated 08/25/04, (Nuclear Compaction Test Report) shows 2 excessively high readings
(96.0% and 95.1% (average of the five numbers)).
I. QV4, dated 08/27/04, (Nuclear Compaction Test Report) shows 2 excessively high readings
(96.1% and 95.3% (average of the five readings)).
j. Several verification compaction tests from
this time period reflected excessive compaction numbers.

71a
67. On the same project, Hooker Creek violated
standards and specifications for HMAC-Tolerances
and Limits, as the product was out of specification on
gradation. In addition, on information and belief,
Hooker Creek knowingly ceased rolling certain areas
of the project so as to avoid high readings on the QC
density test reports.
Mt. Hood-Chemult project (Contract No. 12990)
68. Hooker Creek subcontracted with prime contractor Wildish Standard Paving to supply concrete on
the Mt. Hood-Chemult project (Contract No. 12990),
which began on or about April 27, 2004. This project
involved replacing several bridges between Sandy and
Chemult, on Highway 26 and Highway 97, and construction of a 4-lane passing lane. Between the award
date and Third Note date of November 19, 2007, in excess of $33.6 million was expended on this project.
69. By May of 2005, defendant knew or should
have known that the work it had performed and materials provided on this project did not comply with material specifications. Records available to defendant,
including its own Quality Control documentation, would
show failed batching tolerances. Failures were also reported in plastic properties, and achieving strength.
These specifications were important to the safety and
durability of the entire project, and were therefore a
material term of defendant’s subcontract.
[20] 70. After failure of the concrete to make
the contract’s required strength, defendant conspired,

72a
colluded and agreed with the project manager to issue
a Contract Change Order (CCO). Proper procedure requires prior approval for CCOs. In this case, the contractor did not request or receive the CCO, which came
with specification changes, until after the QV failed to
make strength requirements of 5000 psi on the QV/QC
test reports.
71. In addition, defendant and the prime contractor paved over material that failed volumetrics,
and submitted false tests reflecting passing volumetrics. Photographs demonstrate the finished roadway
exhibited ‘flushing’ and rutting’, and communications
from the project manager indicated problems with
compaction. On May 1, 2006, relator performed QV3
(HMAC, specification 00745); it was determined to be
out of IA parameters on Gmb. On May 3, the QAC performed another TM 326 and AASTHO 166 on ODOT
and contractor samples. Results from the subsequent
tests were even further away from IA parameters than
the original test. After being informed of this, the QAC
performed yet another attempt/version of QV3-backup,
pursuant to collusion and agreement between defendant and ODOT personnel, in order to shield noncompliance. Such actions illustrate compromising of
the QA Program by discounting the validity of the verification (QA) testing.
72. On this project, the Chemult area bridge approaches were paved in the middle of winter, during a
snowstorm. This was in violation of temperature specifications and season specifications, leading to the
use of non-conforming materials subject to premature

73a
failures and public safety risks. The finished roadway
exhibited flushing and rutting, indicating substandard
construction.
Willowdale-Antelope
12994)

project

(Contract

No.

73. Hooker Creek was a subcontractor for a portion of the Willowdale-Antelope project (Contract No.
12994). Carter & Co., Inc. was the prime contractor.
This is a bridge replacement on Highway 218, between
Willowdale and Antelope. In the Fall of 2004, in approximately November, Hooker Creek knowingly violated
specifications for [21] the QA Program concerning Base
Aggregate, Subbase, and Shoulders and for Shaping
and Compacting. With knowledge of the failing materials, Hooker Creek submitted bills for work on the
project.
74. Around the time specified, Hooker Creek
knew of failing verifications, or acted with deliberate
ignorance and reckless disregard of the failing results
of its own Quality Control. In approximately November 2004, it ignored failures on base aggregate (Specification 00641). With respect to batching tolerances, no
verification tests showed passing results. Moreover,
QV1 (Nuclear Compaction Test Report) for base aggregate failed density specification, with a reported 98%
compaction. One hundred percent compaction is required on aggregate base.
75. Hooker Creek was required to maintain and
submit a test summary record in order for it to receive

74a
payment under COOT contracts. On this project,
Hooker Creek failed to report testing information, and
it omitted density tests. Journal notes obtained by relator indicate Hooker Creek’s dealing with its density
testing, and its failure to provide a base aggregate density curve prior to the performance of the density test.
An appropriate curve is necessary for the proper performance of Quality Control and Quality Assurance,
but Hooker Creek knowingly failed to adhere to said
requirements.
76. Although Hooker Creek had a failing verification test on base aggregate, it did not follow program
requirements to identify failing areas and re-work
and re-test. Instead, defendant merely paved over failing areas. Such actions foreclosed on-site verification
of specification compliance, and covered up Hooker
Creek’s non-compliance.
77. On information and belief, this defendant
constructed the concrete bridge on this project, submitting bills thereon, knowingly that did not meet
Batching Tolerances. Compliance with said batching
tolerance requirements is necessary for adherence to
the 20 year safety and durability mandate of the federal statute. Batching Tolerance specifications are
material to defendant’s compliance with contract requirements.

75a
[22] US 26: Laughlin Road to Marks Creek project (Contract No. 13137)
78. Hooker Creek was awarded a bid on the US
26: Laughlin Road to Marks Creek project (Contract
No. 13137), on or about May 13, 2005. This was a paving project from Prineville towards Mitchell for approximately 15 miles on Highway 26. The project
included a small culvert replacement. Hooker Creek
billed over $3 million between the time of the award
and the Third Note date of September 26, 2006, for
materials in violation of specifications for Concrete
Bridges-Batching Tolerances, HMAC Production and
HMAC-Tolerances and Limits. Dave McDonald was
the superintendent.
79. In the summer of 2005, in approximately
August, this project had failing volumetrics, gradations, and compaction. QV3, QV4, and QV5 failed voids,
specification 00745.16, HMAC. QV3 and QV4 were
reported at 6.1, but QV5 was reported at 6.3; but tolerance allows voids between 3.5 to 5.5. QV5 reported failing the #200 sieve at 7.8; under specification 00745.14,
HMAC, tolerance allows between 3.1 to 7.1. Hooker
Creek reported 6.4, a difference of 1.4; but tolerance
allows +1-1.0. Despite the failure of these verifications,
and the substandard nature of the materials provided
by Hooker Creek, the contractor received a bonus for
its work on this project.
80. In the same time period, on this project
Hooker Creek colluded and conspired with ODOT officials to cover up its failure to adhere to contract

76a
requirements and to avoid alternative enforcement avenues. For example, it failed to adhere to QA Program
guidelines in connection with the QV4 density issues,
and then agreed with ODOT personnel to avoid enforcement. QAC Kirkland and QAE Mullis visited the
project on 08/17/05 to run the density verification
(QV4) on HMAC. Density failed at 89.9%; specification
requires 92%. “Remarks” denote how the QAC justified
failing materials, stating: “Immediately began an investigation to determine reason for failing verification.” The reason was never noted, however. Only 4
locations were reported, but five readings are required.
It is not permissible to throw out low readings to
achieve a passing reading, and calculations based on
only four locations would be false.
[23] 81. Following the failure to adhere to guidelines on density testing, the QAC stated he took “other
random locations and found passing test results at
nearly each location.” His report failed to list any
testing results or locations, and did not describe the
process by which “other random locations” were chosen. Such statements indicate obvious knowing noncompliance on behalf of Hooker Creek. Similarly, the
size of the sampling area appears improper, as it is uncommonly small. Locations were within 1/4 mile, but
the actual testing area is grouped within 5/100th, or
1/20th, of a mile. This too indicates obvious knowing
non-compliance with specifications.
82. On this project, Hooker Creek also colluded
and conspired with staff from the Project Manager,
fraudulently conferring substantial economic benefits

77a
to the ODOT inspector (Bruce Dunn) in exchange for
an express or implicit promise not to require the contractor to rectify failed test areas. Said economic benefits included a free home driveway consisting of high
quality materials which were supposed to be used on
this project. This bribe was supplied to the inspector
even while Hooker Creek used, on the project, substandard materials from a commercial source that
were not tested for specification compliance. In an effort to cover up its fraudulent course of conduct, during
investigation by Crook County District Attorney, the
contractor falsely represented that dropping the materials at the inspector’s house saved project money, in
that it purportedly did not then have to drive excess
material to a far away pit. Hooker Creek falsely represented it had brought the materials to the ODOT inspector’s home over several days. Further, it falsely
valued the materials supplied to the ODOT inspector
at only $3,000. In fact, the materials were valued at
about $20,000. In addition, the unlawful inducements
provided including paving machines, rollers, workers
and transport equipment, none of which is explained
by the contractor’s false claim it was merely disposing
of “excess.”
Bend-Sisters Preservation project (Contract No.
13151)
83. Hooker Creek was awarded a bid on the
Bend-Sisters Preservation project (Contract No. 13151)
on June 8, 2005, completing the project by April 11,
2007. This project was for paving Highway 20 and

78a
Highway 97 in and around Bend. Between the [24]
award date and the Third Note date, Hooker Creek
submitted bills for work and materials which the superintendent and quality control technicians knew or
should have known violated specifications for HMAC
Production QC/QA and HMAC-Tolerances and Limits.
84. Four out of five HMAC verification tests on
this project failed.
a. Information from test-log reporting document, shows QV1 failed voids and VFA. Reported voids
were 1.8; but allowable tolerance is 3.5 to 5.5. VFA was
reported at 88; allowable tolerance is 65 to 75.
b. A second QV1 was reported at 27.1% RAP;
specification allows JMF +/-2.0; JMF is 25. There was
also reported failure on the #4 sieve of 64; allowable
specification tolerance is 53 to 63.
c. QV4 failed voids with a reported 6.5; allowable tolerance is 3.5 to 5.5. It also failed the #4 sieve
with a reported 55; specification tolerance is 56 to 66.
d. QV5 failed dust-to-oil ratio; with a reported 1.62; allowable tolerance is 0.80 to 1.60.
85. Defendant had actual knowledge of the failing materials supplied on this project, but nevertheless
submitted claims for payment. In addition, defendant
was required to conduct its own Quality Control to
ensure compliance with these material specifications.
It’s failure to conduct or report such Quality Control
measures, and its false reports of materials passing
specifications, led to false and misleading statements

79a
on material contract terms. Despite such failures,
Hooker Creek was granted specials and cost increase
requests on this project.
OR 58: US 97 Overcrossing (Contract No. 13311)
86. Hooker Creek was a subcontractor on a contract awarded for the OR 58: US 97 Overcrossing (Contract No. 13311), with M. J. Hughes Construction Inc.
as the prime contractor. This project involved replacing
an overpass on Highway 97’s connection to Highway
58. In April and May of 2007, Hooker Creek provided
materials for the project in violation of contract specifications concerning Concrete Bridges-Batching Tolerances, as well as QA Program requirements for Base
Aggregate, Subbase, and Shoulders.
[25] 87. Project records demonstrate Hooker
Creek created and used false and misleading records
regarding base rock, in violation of base rock specifications (00641) and concrete bridges (00540). On this
project, there were obvious IA parameter problems
with density, in relation to the use of statistical curves.
Notes by the contractor’s technician report test data up
until the final row of calculations; but only some of the
data was actually reported. Other data was omitted.
Remainders of the final test document varies from the
scratch notes, evidencing that the data was manipulated to achieve an acceptable curve. Contractor notes
are used to carry data, and any scratch outs, additions,
differences, missing numbers or other adjustments
are suspected to be not actual numbers derived from

80a
testing. Hooker Creek’s records indicates intentional
manipulation of the data, not math or recording errors.
88. On 04/16/07, an IA curve for base rock was
generated, out of IA parameters by 4 lbs. and 5% moisture. On 05/03/07, a second attempt was made to try to
settle the IA issue, but the difference was 3.1 lbs. and
3% moisture. Under the QA Program, allowed tolerances are 3 lbs. and 2% respectively. In addition, the
QA technician used the second curve generated by
Hooker Creek for acceptance. This is not the appropriate method under the QA Program, and it precluded
the documentation and disclosure of Hooker Creek’s
non-compliance. If there is a discrepancy, the test results must be evaluated, and the QA Program is in
place to verify the contractor. Throwing out the QA
curve and using the contractor’s curve for verification
does not meet this standard.
89. On this project too, Hooker Creek agreed and
colluded with ODOT officials in order to claim payment
for non-compliant materials and avoid enforcement of
contract remedies. When QA Kirkland was questioned
about these elements, he stated that he was told to disregard the QA curve and use the contractor’s curve for
verification. Hooker Creek’s collusion and agreements
with ODOT personnel meant there was no independent assurance, in violation of specification 00641, base
aggregate.

81a
[26] US 97: China Hat Rd.-Baker Rd./Lava Butte
project (Contract No. 13334)
90. Hooker Creek was awarded a bid on the US
97: China Hat Rd.-Baker Rd./Lava Butte project (Contract No. 13334) on March 9, 2007, completing the
work on August 21, 2008. This was a paving project between Bend and Sunriver, on the edge of Bend on Highway 97. In approximately June of 2007, Hooker Creek
provided materials it knew or should have known were
in violation of procedures and specifications, including
HMAC Production QC/QA.
91. Hooker Creek’s technician knew that the
work failed specification on HMAC mix properties
(00745), violated Manual of Field Test Procedures, and
failed to follow test procedures TM 8 (in-place density
of Bituminous mixes using the Nuclear Density Moisture Gauge) and TM 304 (Nuclear Density Moisture
Gauge calibration and effect of hot Substrate). Photographs of the gauge provided by relator shows the
gauge used was not running correctly. It had higher
readings, making it easier for the contractor to achieve
a compliance reading. Paperwork shows three gauges
(2 ODOT and 1 contractor) were not calibrated according to procedures, making it impossible to ascertain
which, if any, were reading correctly.
92. At the time Hooker Creek claimed payment
on this contract, it knew that all compaction could not
be verified. Scratch notes provided for QV1 show that
the technician did not follow TM 8. This test method
reads: “Note 4: If the difference between the two one

82a
minute tests is greater than 40 kg/m3 (2.5 lb/ft3), retest in both directions.” The hand notes show that the
readings on #1 were exceeding their limits, with readings at 144.8 and 148.1, for a difference of 3.3 lbs. The
144.8 was scratched out and a 146.5 was written in,
denoting a second attempt was made in only one direction. In the final paperwork, the 146.5 reading is used.
With reference to #3, readings were at 145.3 and 147.6,
for a difference of 2.3 lbs. The 145.3 was scratched out
and a 148.2 was written in. Only by changing these
numbers was the reading well within tolerance. Without following proper procedure for retesting, the readings were invalid.
[27] 93. In the summary of test results on this
project from June 11, 2007 to June 20, 2007, a chart
shows IA parameters had issues and were not handled
according to procedures of the QA Program (manual
page 41, 42, & 47). Proper handling of IA parameters
being out of compliance requires that the sample be rerun and the numbers compared again. In this instance,
only half of the sample was rerun (ODOT’s half). The
numbers from this retest were compared to the first set
of test numbers from the contractor. This is not in compliance with the program, as it is impossible to verify
which of the samples were correct.
94. Other false statements of compliance with
specifications and fraudulent conduct connected with
Quality Control and Quality assurance on this project
include:

83a
a. Documentation sent to Ray Cunningham
by Dave Kirkland, show the Job Mix Formula tolerance
for asphalt content was incorrect. Weights of biscuit for
sample one and two are identical. This is highly suspect for fraud. In addition, the records are missing
roller information.
b. In the final attempt by Ray Cunningham
to complete testing paperwork, a note refers back to
page one hand notes. This computer-generated document confirms that the invalid gauge readings were ultimately used to calculate the final document, using
incorrect tolerances for the asphalt content. In the final copy, one test result has been blacked out. Relator
tested the ‘damaged biscuit”. There was a small notch
out of one corner of the biscuit but the remainder of the
biscuit was fully intact with no other markings or damage. The density difference was only .015, well within
the allowable Bulk Specific Gravity of IA parameters
of 0.020. The damaged biscuit was therefore testable.
Using this biscuit to calculate out voids however put
the contractor out of specification on voids. It is therefore clear the technician threw out the biscuit to avoid
accurate, failing test results.
c. QV4 (voids worksheet) is out of specification on voids and VFA. Voids show 6.6; specification
00745.16 allows a tolerance of 3.5 to 5.5. VFA shows
64; allowable tolerance is 65 to 75.
[28] d. QV2 (voids worksheet) is out of specification on voids and VFA. Voids show 3.4: specification

84a
00745.16 allows a tolerance of 3.5 to 5.5. VFA shows
79; allowable tolerance is 65 to 75.
e. QV3 is identical to the record listed as
QV4. This indicates a false or fraudulent duplication of
verification test results.
f. Standard Count Log shows no activity for
06/12/07 and 06/13/07. The Standard Count Log readings must be listed when you use the gauge. (TM 8)
g. Hand notes from the QA department
show there was a problem between ODOT’s gauge and
the contractor’s gauge. The maximum allowable difference between the gauges is 2.5 lbs. In the records, the
difference in the “OURS” verses “Carlson” columns is
4.7 lbs. One of the gauges was out of calibration. Proper
procedure at this point required a determination of
which gauge was operating correctly, using ODOT’s
Calibration Blocks. This step was not performed correctly. As a result, it was impossible to verify compliance with specification or adherence to QA procedure.
h. A Nuclear Density Gauge Checkout Log
shows that the gauge was used on 06/12/07 and
06/13/07. This was a radiation license violation.
I. The contractor’s calibration check (hand
notes) on Troxler gauge #25955 shows that only one
standard count was taken. Five are required for the
test procedure. (TM 304)
j. Hand notes written on 06/12/07 have numbers crossed out that were out of tolerance. This
scratch sheet was used to generate test records, and it

85a
appears this technician had a habit of reshooting density readings to attain different numbers if the previous set of numbers are out of compliance. These notes
indicate that is what was done on this contract, as no
test procedure allows for the reporting of multiple sets
of numbers. The contractor’s conduct is strictly against
procedure (QA Program, pg. 54 (#4), and ODOT TM
304, Section 5(G)).
k. Nuclear Density gauge calibration records contain only one or no standard counts. Standard
counts orient the gauge to its environment. Five are
required under TM [29] 304. As a result, it was impossible to verify compliance with specification or adherence to QA procedure.
l. QV3 (field worksheet) shows the same test
number (QV3), using different dates and different data
numbers. This demonstrates that the tests in question
were not actually the test for QV3. (00745)
m. Comparison between the results of QV1
and QV1b demonstrate further falsehoods. On the 3/8
and VI sieves, there is a difference of 10%; allowable IA
tolerance is 5%. The #4 sieve difference is 7%; allowable tolerance is 5%. The #8 sieve difference is 6%; allowable tolerance is 4%. The #30 sieve difference is 4%;
allowable tolerance is 2%. And the #200 sieve difference is 3.3%; allowable tolerance is 1.0%. [All of these
tolerances are from the IA Parameters table (pg. 27) in
the QA Program/MFTP[.]
n. Records comparing QV1, QV1?, and QV1b
show all three versions, making it impossible to

86a
determine which is the actual version. All tests were
performed incorrectly. This evidences that ODOT oversight was lacking, and that, pursuant to collusion and
agreements with Hooker Creek, ODOT personnel were
employing false and misleading numbers to try to verify a contractor’s numbers. The test data that was generated from the QA group does not adequately explain
why there is conflicting data, and therefore it is not
possible to verify if the contractor achieved specification.
95. Pursuant to collusion and agreements to
take measures to protect against discovery of Hooker
Creek’s substandard materials, Hooker Creek arranged
for ODOT personnel to shred failed ODOT QA documents. Such fraudulent conduct was intended to
preclude discovery of failed verifications, as well as
Hooker Creek’s demand for payment on contracts it
knew it performed with non-compliant materials.
US26: Warm Springs River project (13257)
96. Hooker Creek was awarded a bid on the US
26: Warm Springs River project (Contract No. 13257)
on May 30, 2006. This was an 11 mile project, from Mile
Post 85 to approximately Mile Post 96 on Highway 26
(Warm Springs Reservation). Between the start and the
Third Note date (October 17, 2007), Hooker Creek submitted bills [30] causing the payment of more $3 million, knowing that the materials failed specifications.
There were HMAC specification failures (00745). Test
log reporting documents show QV1 out of specification

87a
on sieve #200. No numbers were reported on test data.
Voids, VHA and dust-to-oil were out of specification.
QV2 reported out of IA on the #200 sieve by 1.2%. Specification allows for tolerance of =/-1.0%. QV3 shows out
of specification on voids. Reported number was 5.4%,
tolerance is 3.0% to 5.0%.
Oregon Mainline Paving, LLC
Redmond Reroute, Unit 1, Phase 2 project (Contract No. 13302)
97. Oregon Mainline Paving, LLC, was awarded
a contract bid on the Redmond Reroute, Unit 1, Phase
2 project (Contract No. 13302), on or about December
5, 2006. This project was to construct a reroute on
US97 Section of the Dalles-California Highway in
Deschutes County. Defendant provided key foundational materials for the project, which in total required
the expenditure of over $100 million. By completion of
the project on or about November 24, 2009, Oregon
Mainline had claimed, and caused the state to present
claims for federal reimbursement, of more than $31
million for its paving, earthwork and related construction work and materials. Over $5.5 million of
the project was scheduled for embankment in place.
Throughout the time of this construction, Oregon
Mainline submitted bills for work knowing it had violated standards and specifications for Earthwork, Base
Aggregate, Compaction Requirements, Concrete Bridges
Batching Tolerances, and Limits of Mixture. It also
had many problems not adhering to the QA Program

88a
guidelines. Superintendent for defendant was Bob
Peatrac, and additional contractor technicians who knew
or should have known of the substandard work included Randy High and John Eells.
98. Throughout the work on the project, defendant created false or misleading reports it had conducted the required Quality Control activities, and the
materials provided had met specification. Defendant
began earthwork Quality Control testing on February
5, 2007; by March 2, 2007, it claimed to have performed
64 QC tests. Each time, the contractor reported passing results. Quality Assurance testing began on [31]
February 20, 2007. Two tests were performed (QV1 and
QV2), and both failed. These failures required the contractor to generate new curves. On February 26, 2007,
a technician from QA returned to the project to retest
QV1 and QV2, and perform QV3 for the first time.
The QV1 area was not reworked, as required by QA
Program. QV2B and QV3 were performed, but QV2B
failed again.
99. On February 27, 2007, the QC technician on
the project falsely stated the Nuclear Moisture Density
Gauge (Troxler) was not accurate in use on lightweight
aggregate (cinders). He claimed to have a letter from
the manufacture stating that the gauge was not guaranteed accurate on materials lighter than 90 lbs. per
cubic foot. The contractor requested to discontinue use
of the Nuclear Moisture Density Gauges altogether,
and go to the deflection test method – an unreliable
method to determine compaction. Materials being tested
did not fit into the lightweight materials category of 90

89a
lbs. or less, as the materials from the QC tests ranged
from 93.6 lbs. to 109.6 lbs. Such heavy material was
enough to achieve the required compaction readings
via the Nuclear Moisture Density Gauge.
100. On February 28, 2007, a request was made
for QV1B and QV2C be retested, and QV4 be performed (for the first time). All three test areas failed.
QV1B required another curve. On March 5, 2007,
QV1C was performed; and it failed. On information
and belief, 8 Quality Assurance (QV) tests had been
performed; with only one passing.
101. After producing approximately 70 Qaulity
[sic] Control tests falsely reporting passing materials,
Oregon Mainline continued working this project. Without accurate and truthful testing throughout the process,
it is not possible to obtain verification of the quality of
materials. After its false reports of passing tests, defendant continued to place lifts on top of prior lifts. At the
time, it knew it was covering up failing materials, in the
absence of passing Quality Assurance tests.
102. Relator raised concerns about the project on
March 9, 2007, including the need for additional testing and the false or incorrect testing data. Oregon
Mainline nevertheless continued to submit bills and
received payment, ignoring these concerns.
[32] 103. On March 19, 2007, relator performed
QV5; it failed. Interactions with the project manager,
and the manager’s response, evidence collusion between the contractor and the project manager, leading
to an express or implied agreement to maintain good

90a
relationships by foregoing enforcement of contract requirements for compliance with specifications. Rather
than stop the construction, as outlined in specifications
00330 (earthwork) and the QA Program, the contractor
sought a Contract Change Order on testing requirements, employing a method which does not permit materials verifications, and which is inappropriate for the
circumstances.
104. Even though 11 of 12 QV tests had failed on
this project, defendant allowed failing materials to
stay in place. As a result, the roadway – designed by
specification to have a projected 20-year life span – required major repairs before 5 years had passed. In an
effort to avoid detection, defendant continues to falsely
claim said repairs were required for studded tire and
truck damage, when, in fact, the roadway failed because it was [ ] out of compliance on compaction.
105. Another major problem with the project
involves IA curve problems, in violation of the specification for earthwork (specification 00330). On this
project, IA did not match on the original curve between
ODOT and the contractor. With defendant’s knowledge
and agreement, the ODOT technician who generated
the ODOT curve manipulated the numbers to make it
appear that the curves matched.
106. With respect to concrete bridges (specification 00541), between March 30 and July 27, 2007,
there were six verification (QV) tests performed on
the concrete placed on an overpass. Not a single test
passed specification (Section 00540.46B) for batching

91a
tolerances. Five of the six tests failed QC responsibilities (Section 540.30B). All of these specifications are
Industry Standards, were material to the contractor’s
performance, and were not met.
107. With respect to base aggregate (specification 00641), QV4 and QV5 failed gradation on the 3/8th
sieve. QV4 was reported at 77% and QV5 was reported at 76%; allowable tolerance is 55 to 75% (Section 00641.10 and specification 02630). Section [33]
00641.16 states that each sieve size needs to have a
pay factor greater than 1.00. With QV4 and QV5 failing, it was not possible for this to be attained. The best
possible pay factor is 0.97, rendering the stockpile to
be non-specified. Even though no payment should have
been allowed for these materials under these circumstances, Oregon Mainline hauled the material out to
the project and placed it on the ground.
108. Records illustrate that, on this project, two
original curves for QV on base rock were out of IA parameters, initially and upon retesting. Even the curve
produced in a ‘third party resolution’ was not used.
QA Program guidelines were not followed. Further,
with respect to HMAC (Section 00745), notes show
that sieves were overloaded. Instead of re-shaking the
sample, as required per T 27/11, mathematical manipulation of the sample was used without physically performing the test.

92a
109. Photographs of this project also demonstrate substandard materials:
a. For QV1, photographs show the area to be
exactly as it had been on the prior test date, even
though the contractor claimed it was reworked and
ready for re-testing;
b. For QV6, photographs show the ground as
being dry, and roller tracks confirm that the ground is
not yet fully compacted;
c. For QV7, photographs show the roller did
not compact the ground clearly, as there are indentations from the sheep’s-foot roller. Also, the photographs
show there are no large particles, in violation of the requirements for earthwork (specification 00330).
110. Project Specials and emails from the Assistant Project Manager referencing form 4040 demonstrate awareness over relator’s concerns and the failure
to address them. QA test for concrete bridges (specification 00540) show they were out of specification.
Spreadsheets contained out of specification concrete
and a summary of specifications for failing earthwork.
Documents related to a Contract Change Order show
elimination of testing on cinders. All of these material
violations were known to Oregon Mainline.
111. Contractor’s test results on this project
falsely show passing QC. These include: a spreadsheet
summary of contractor’s tests outlining failing areas; a
curve chart and explanations related to base aggregate; information provided on March 5, 2007, to the

93a
[34] QA office dealing with earthwork (specification
00330); hand notes on the curve for earthwork (section
00330); QV9 through QV13, concerning earthwork and
representing the area from station 5+860 to station
6+690, show five tests butted-up against one another;
an email from the project manager’s office shows the
QA office used the incorrect base rock curve; hand
notes of a Nuclear Moisture Density Gauge comparison, with ODOT’s gauge showed a reading of 33kg/m3
higher than the contractor’s gauge (allowable tolerance is 24kg/m3); a fax from Carlson Testing to Kirkland shows the contractor’s awareness of lightweight
density specifications from the Federal Highway Admin; an email from QAE Mullis explained he did not
follow the QA Program; the contractor’s QV1 curve
shows the maximum density lower than what is actually achievable; QV1 and QV2, on base rock compaction, illustrate the QA technician used the incorrect
curve.
112. On this same project, in approximately February of 2007, Oregon Mainline Paving obtained documents from the test instrument manufacturer to
support its claim that the equipment was not suitable
for testing the type of materials on the project. In order
to obtain these documents, defendant misrepresented
to the test instrument manufacturer the type of material to be tested. The actual test data from both QC and
QA verifies the material was in fact testable under
both ODOT standards and the manufacturer’s specifications for the testing instrument. On the basis of defendant’s false statements and fraudulent conduct, it

94a
received a Contract Change Order (CCO) from the Project Manager (Ron Snell) which altered testing requirements on fill material and set up specific guidelines for
which materials fell under the new guidelines. Even
after the CCO was obtained, defendant knowingly
failed to follow CCO guidelines.
J.C. Compton Contractors
Biggs-Wasco & Grass Valley project (Contract
No. 12907)
113. J.C. Compton Contractors was awarded a
bid on the Biggs-Wasco & Grass Valley project (Contract No. 12907), on or about October 30, 2003. This
project involved realigning Highway 97, north of
Wasco, and an over-lay between Biggs and Wasco. [35]
Between the award date and the Third Note date of
February 9, 2007, J.C. Compton had claimed more than
$5 million for contract performance and materials on
the project. At the time, the contractor knew or should
have known that the work being performed was not in
compliance with contract standards.
114. In February 2004, J.C. Compton determined
to perform only 24 quality control tests, despite knowing that 2004 specifications required 53 such tests. J.C.
Compton’s records, and communications between technicians, the contractor and PM, would demonstrate
how many were actually performed. Interactions between the project manager, QAE Mullis and relator
indicate the contractor colluded with the project manager in an effort to create false documentation of

95a
passing verifications. Such actions were taken to enable contractor payments, even though the contractor
had failed to fulfill its Quality Control and Quality Assurance obligations.
115. In this time period, defendant also knowingly violated specifications for HMAC Production, using a false record of passing results when three of four
verifications failed. Records indicate QV1, QV2 and
QV4 failures:
a. QV1 failed VFA with a reported 76; allowable tolerance is 65 to 75.
b. QV1 failed Density with a reported 96.7%;
maximum allowable is 95%.
c. QV2 failed voids with a reported 6.2; allowable tolerance is 3.5 to 5.5.
d. QV2 failed VFA with a reported 60; allowable tolerance is 65 to 75.
e. QV2 failed dust to oil ratio with a reported
1.69; allowable tolerance is .80 to 1.60.
f. QV4 failed voids with a reported 2.5; allowable tolerance is 3.5 to 5.5.
g. QV4 failed VFA with a reported 81; allowable tolerance is 65 to 75.
h. QV4 failed dust to oil ratio with a reported 1.79; allowable tolerance is .80 to 1.60.

96a
[36] Cotton Wood-Freemont project (Contract
No.12985)
116. J.C. Compton was awarded a bid on the Cotton Wood-Freemont project (Contract No.12985), on or
about April 7, 2004. This was an over-lay project from
north of Sunriver, to south of LaPine, on Highway 97.
Between the award date and the Third Note date of
February 24, 2006, J.C. Compton claimed more than $4
million for work on the project, despite objective information that the materials provided did not comply
with specifications. Superintendent was Mike Flanigan, Jr.
117. Once finished, the project experienced severe failure of the HMAC in LaPine. Shoving illustrates material is free moving, and not adhering to the
under-layers of HMAC. Defendant knowingly placed
damaged mix on the project, using the windrow which
was already in front of the paver during wet weather
conditions. Failure to use dry pavement was in violation of specification. (Sections 00745.42 and 00745.48).
118. In the Fall of 2004, after being informed aggregate samples failed, J.C. Compton cherry-picked
samples it knew would pass product compliance tests.
Defendant also submitted false Quality control documents in violation of specifications for HMAC Production QC/QA, falsely reflecting no problems with
volumetric properties. Defendant claimed and received
a bonus on this project, knowing that it had provided a
substandard product and was not entitled to any payment for the work performed.

97a
119. Use of substandard material on this project
led to its premature failure. Failed highway surface on
this project was removed and replaced approximately
one month after completion. Within approximately one
year of the replacement, the highway surface began
shoving again, in the same vicinity as the previous failure. Relator performed a ‘coring’ mission to try to ascertain what was causing the failure. The failing area
was described as “migrating.”
120. One factor for the defective materials is the
HMAC failed the dust-to-oil ratio. Excess dust, considered contamination, (material smaller than the #200
sieve) causes the HMAC to be unstable. These facts
were omitted from the reports submitted for contract
payment. There are two failing verification (QV) tests,
which well exceeded [37] the allowable tolerance of
dust-to-oil. QV1, dated 08/05/04, failed with a reported
value 1.69; allowable tolerance is 0.80 to 1.60. QV1,
dated 08/30/04, failed with an extremely high 2.05; allowable tolerance is 0.80 to 1.60. The sources (rock pits)
of this HMAC had a history of excessive lightweight
materials (cinder), which have a high absorption property, tending to soak up asphalt (oil). Use of these
materials were in violation of Section 00745.16 (dustto-oil) and Section 00745.10 (light-weight pieces).
121. Defendant J.C. Compton knew about these
source issues, and the contractor was not comfortable
using the Gas Station/Icehouse pit (09-099-4), requesting to only use the other source, Black Rock (18-100-4).
Photographs show the large amount of cinder included.
Such materials work well as long as they remain in a

98a
known consistency (cinder requires approximately
17% oil; hard rock requires only 5.5 to 6.5 % oil). In this
case, the percentage of cinder in the HMAC mix varied,
making it next to impossible to regulate the oil and ensure an acceptable mix.
Hap Taylor/Knife River
Grandview Dr.-Nels Anderson Place project (Contract No. 12884)
122. Hap Taylor/Knife River was awarded a bid
on the Grandview Dr.-Nels Anderson Place project
(Contract No. 12884), on or about August 8, 2003. This
project entailed building frontage roads along Highway 97 in Bend. Between the award date and the Third
Note date of June 24, 2005, defendant claimed about
$1.17 million for work on the project. At the time the
work was performed, defendant’s Superintendent and
Quality Control technicians knew the work was not
in compliance with specifications respecting HMACCompactors (00745), or acted with deliberate ignorance and reckless disregard as to the defendant’s
compliance.
123. On or before April 1, 2004, Hap Taylor
falsely report it had achieved the required compaction
when defendant’s technician used rollers that were
smaller than specifications allowed. Specification (Specials) 00745.24(a) states, “Provide steel-wheeled rollers
with a minimum gross static mass as follows: Level
3/Breakdown and Intermediate - 9Mg.” Specification
(Specials) 00745.24(b), vibratory rollers, refers [38]

99a
back to 00745(a) stating’ “Have a minimum gross static
mass meeting the requirements of 00745(a). On QV1,
rollers CB 334 and CB434 used smaller than specification requirements. The CB 344 roller and the CB 434
roller have a minimum gross static mass weight of 3.96
Mg. and 7.40 Mg., respectively. This method took less
compactive effort (weight) to achieve compaction, with
the mix compacted too easily. Defendant knew that it
had problems with the volumetric properties of the
HMAC, and yet falsely and fraudulently failed to report it.
124. Specification 00745.49 requires: “Complete
breakdown and intermediate compaction before the
HMAC temperature drops below 180 degrees Fahrenheit . . . ” There were no other rollers on the project,
other than the ones listed herein. The fact that the
HMAC achieved compaction with lower weight shows
HMAC achieved compaction too easily, out of specification. Further, actual material failed QV1 voids with a
reported 3.8; allowable tolerance is 3.9 to 5.9.
125. All of the substandard materials was known
to the PQE (Pavement Quality Engineer) and the QAE,
as well as ODOT QA Technician Steve Roberts.
US 97: Riley Bridge Bend project (Contract No.
13032)
126. Hap Taylor/Knife River was awarded a bid
on the US 97: Riley Bridge Bend project (Contract No.
13032), on or about August 13, 2004. This project involved replacing a bridge with a culvert, inside the city

100a
limits of Bend, on Highway 97. Between the award
date and the Third Note date of January 17, 2007, defendant claimed $167,102 for work on the project. Superintendent was Mike Hutchins. At the time the work
was performed, defendant knew or should have known
that its work and materials violated specifications
for Concrete Bridges-Batching Tolerances (specification 00540).
127. Contrary to appropriate procedures, there
was only one concrete verification test performed on
this project. It showed defendant did not meet batching
requirements. It also showed plastic limits failed air
percentage, with a reported 4.4; a minimum specification of 4.5 was required. Tolerance is =/-1.5 from a target of 6 (4.5 to 7.5). A laboratory report available to
defendant showed failure of air.
[39] 128. Defendant failed to document and disclose this non-compliance. In the Winter of 2004, in
approximately November, this defendant failed to provide the required analysis, recommendations, and adjustments on this project. Moreover, it failed to submit
required written reports in connection with changes in
mix design.
Or 16: Glacier-Highland Couplet project (Contract No. 13072)
129. Hap Taylor/Knife River was awarded a bid
on the Or 16: Glacier-Highland Couplet project (Contract No. 13072), on or about December 22, 2004. This
was the first phase of the Redmond Reroute project,

101a
and included alignment of Highway 126 and Highway
97. Hap Taylor claimed just under $10 million for work
on the project by its completion date of July 9, 2009.
The project manager was Rob Peters. At the time it performed its work and claimed payment, defendant knew
that it had provided substandard materials in violation of specifications for HMAC-Compaction and while
IA parameters were out of tolerance.
130. Defendant knew or should have known about
the non-compliant materials provided on this project,
and yet requested payments, including bonuses. Defendant colluded and agreed with the project manager
to falsify compliance documentation. For example, QV1
for HMAC had a failing test report, showing 90.0%.
With defendant’s knowledge and agreement, the project manager falsely substituted a passing compaction
number. As a result, the contractor was paid a bonus of
$16,092.59.
131. In 2005 and 2006, defendant – through its
QCT – falsely and fraudulently used a nuclear moisture density gauge owned by the defendant that was
not in compliance with calibration standards. Defendant knowingly mis-calibrated the gauge in connection
with its use. The Nuclear Compaction Test Report for
HMAC (specification 00745) was performed to allow a
bigger bonus, even though the original test failed for
the area. Defendant colluded and agreed with ODOT
QA Coordinator Dave Kirkland to mishandle the
gauge, and defendant knew that Kirkland had a reputation for reporting false numbers in support of
the contractor.

102a
[40] 132. In addition, records show the QAC and
contractor did not match IA parameters, and had voids,
dust-to-oil, and VFA specification failures.
a. QV4 (specification 00745, HMAC) reported voids at 2.6; allowable tolerance is 3.5 to 5.5.
VFA reported at 82; allowable tolerance is 65-75.
b. IA parameters are out of specification
(AASHTO T 209). Contractor reported a 2.554 verses
[sic] ODOT reporting a 2.577, for a difference of .023;
allowable is .020. ODOT performed another test, reporting 2.582, and calculated a difference at .028,
which is also out of IA parameter, and by a larger margin. Defendant’s tester, Don Eves, admitted to relator
he had been informed of these numbers, and questioned whether there may be “duplicate paperwork
floating around,” a reference to falsified documentation.
c. Verification test for QV4 (? -not specified)
illustrates that compaction is being obtained too easily,
especially when the finish roller did not meet weight
requirements for the specification (00745, HMAC).
d. A memo to the file by the project manager
inspector outlines that the contractor did not follow the
QA Program.
133. On the same project, Hap Taylor falsely and
fraudulently used smaller rollers to achieve compaction in violation of HMAC-Compactors specifications.

103a
US 97/26 Willow Creek-Depoe Rd. project (Contract No. 13077)
134. Hap Taylor/Knife River was awarded a contract bid on the US 97/26 Willow Creek-Depoe Rd. project (Contract No. 13077), on or about December 22,
2004. This project was the realignment of the intersection of Highways 97 and 26, at the north end of
Madras. A private consulting company acted in the capacity of the Project Manager. Defendant claimed more
than $4.6 million for work on the project by its Third
Note date of October 20, 2006. At the time the work
was performed and funds claimed, defendant knew or
should have known it violated specifications for Concrete Bridges--Batching Tolerances, Aggregate Base,
Subbase, and Shoulders.
135. On this project, defendant knew or should
[sic] about failures of specifications for concrete
bridges (00540), base aggregate (00641), and HMAC
(00745). In addition, [41] documentation from region
comparison of all concrete tests (Concrete Chart) performed in Region 4 over six years denotes material for
this project failed batching tolerances. Defendant’s
own Quality Control obligations should have led to the
documentation and disclosure of such non-compliance,
but it failed to satisfy those duties.
136. With respect to base aggregate, defendant
failed to use a curve, and did not verify a base rock
curve. ODOT QAC performed QV1 on August 29, 2005,
without the required curve information. Test documentation, dated August 31, shows the curve number used

104a
to calculate results came from a different source. On
September 22, 2005, relator was instructed by the
QAC to obtain QV2, even in the absence of curve information. Tests showing passing density requirements
were based on false numbers provided by QAC. Relator
recalculated after locating curve information worksheets, and found that the tests were not within IA parameters.
137. Based on these records, the stockpile contained at least two different types of materials (rock).
Since no verification had ever been performed on the
curves, it is impossible to determine which – if any – of
the curve numbers were accurate, or whether the
materials used match the correct density. Despite its
knowledge that verification would be precluded, defendant continued to perform the work, and demand
payments.
138. In addition, there were two required verification (QV) tests; both failed RAP content (00745.14).
QV 1 was reported at 17.4 and QV 2 was reported at
17.3. Allowable tolerance for JMF is +/-2.0; JMF for
this project was 20. Photos for this project also show
obvious non-compliant seams and segregation. Despite
its knowledge of these failures, defendant failed to accurately record them in its Quality Control, it continued to perform the work, and it continued to demand
and receive payments.

105a
US 97: Redmond Reroute, Phase 1, Unit 1B (Contract No. 13165)
139. Hap Taylor/Knife River was awarded a bid
on the US 97: Redmond Reroute, Phase 1, Unit 1B
(Contract No. 13165), on or about July 6, 2005. Up to
the Third Note date of February 29, 2008, defendant
claimed more than $6 million for work performed. At
the time it performed the work, in approximately February of 2006, defendant knew [42] the project was
in violation of specifications for Concrete Bridges –
Batching Tolerances, and HMAC – Compactors (using
smaller rollers).
140. Defendant colluded and agreed with ODOT
personnel in order to evade Quality Control and Quality Assurance reporting requirements, and to receive
payment for work that was out of compliance with material specifications. One ODOT technician falsely reported he was unable to drive a pin for verifications,
and did not follow proper test procedures by moving to
another area to continue with testing. This is demonstrated by the fact that the report does not mention a
change of test area, and station areas are measured
and reported on the test form (00330 and AASHTO
T 310). Defendant’s own records claimed it had driven
testing pins on more than 60 occasions.
141. All concrete for this project failed batching
tolerances, Section 00540.46 – concrete bridges. Such
specifications are material to the roadway’s compliance
with the 20-year safety and durability mandate of the
Transportation Act.

106a
142. Defendant used rollers on this project that
were too small. Per Section 00745.24 (HMAC), defendant was required to use a minimum weight for
steel-wheeled rollers for finishing at 6-tons. Rollers on
the project weighed less than 5-tons. The contractor
achieved compaction of 95%; if the mix compacts at a
lower weight, then the mix is too easy, and it will
“shove” and “rut” under pressure of normal traffic. The
roller also did not make extra passes over the panel to
achieve compaction, another indicator the mix properties were substandard.
143. With defendant’s knowledge and agreement, the QA technician generated an incorrect curve
for use on this project. Records demonstrate use of an
incorrect curve for verification; while a hand drawn
curve contained the correct version. Such false records
were used to cover up defendant’s non-compliance with
specifications, and to avoid contractual remedies that
might be enforced against such non-compliance.
OR 31: Silver Creek Bridge project (Contract No.
13185)
144. Hap Taylor/Knife River was a subcontractor
on the OR 31: Silver Creek Bridge project (Contract
No. 13185). Steve Coats Construction served as the
Prime [43] Contractor. This project consisted of building a small bridge in Sliver [sic] Lake. By 2006, defendant knew that the work it performed on the project had
failures of specifications for earthwork (00330) and
concrete bridges (00540). Despite such knowledge, it

107a
submitted claims on the subcontract, in an amount to
be determined, for such non-conforming work.
145. On this project, defendant did not notify
ODOT regarding the scheduling of the work. As such,
no density tests were performed on earthwork, and
none were performed prior to completion of the work.
By delaying contact until after the work was done, the
contractor purposefully foreclosed the possibility of
verification.
146. On this project, the QA verification test was
out of specification for batching tolerances (00540).
Such specifications are material to the safety and durability of the bridge construction.
US 97 @ S. Century Drive, Sunriver project (Contract No. 13189)
147. Hap Taylor/Knife River was awarded a bid
on the US 97 @ S. Century Drive, Sunriver project
(Contract No. 13189), on or about December 6, 2005.
This project was a large interchange at the entrance to
Sunriver. Defendant claimed more than $9 million for
work on this project, which had a Third Note date of
August 26, 2008. By spring of 2006, defendant knew or
should have known it was out of compliance on several
material requirements, including specifications 00330
(earthwork), 00540 (base aggregate), 00641 (concrete
bridges), and 00745 (HMAC).
148. With respect to earthwork, several of the QV
tests failed Section 00330.43, for density and moisture

108a
content, and deflection, including the first and second
attempts. QV2B and QV8 (specification 00330, earthwork) documentation reflect the failures, but neither
was included in the summary document, submitted as
a condition of contractor payment. Records at the time
raised questions over the validity of the family of
curves used on the project, but defendant failed to investigate or report those questions.
149. With respect to concrete (specification 00540),
all concrete tests failed batching tolerances, Section
00540.46. The bridge deck failed on air content (Section 00541.17). Reported air was 4.4%; specifications
tolerance allows 4.5%.
[44] 150. With respect to aggregate base, ODOT
verified a curve that was within IA parameters, but
this curve was not used. Instead defendant generated
another curve, which was not verified by ODOT QA, or
any other entity. This second, unapproved curve was
the curve used to accept placement of base rock. By
using either curve (approved or unapproved), the contractor was not placing the material at the proper moisture content, therefore the material failed 00641.12.
151. With respect to HMAC, QV1 was out of parameters on the #200 sieve. Reported difference was
1.5; specification allows tolerance of +/-1.0 (QA Program,
pg. 27). In addition, records of the Project Manager
QCCS demonstrate that samples had not been labeled
in the field, in violation of standards (00596, MSE
backfill). Photographs of hand notes from ODOT technician Cunningham show original testing numbers

109a
crossed out, and higher numbers written in to the left.
This demonstrates numbers being written over (substituting a 9 for an 8), indicating the technician is ‘auditioning’ numbers to achieve a passing number, in
violation of specification 00641, base aggregate.
OR 126: Prineville Crooked River Bridge (Contract No. 13200)
152. Hap Taylor/Knife River was a subcontractor
on the OR 126: Prineville Crooked River Bridge (Contract No. 13200). JAL Construction Inc. served as the
prime contractor. This project involved a bridge replacement and an intersection change on Highway
126, at the intersection with Highway 26, at the west
end of Prineville. At the time defendant performed the
work, it knew it had major problems with QA program,
as well as failures of specifications for earthwork
(00330), concrete bridges (00540) and HMAC (00745).
By 2006, defendant knew of these failures but nevertheless claimed payment of funds on the subcontracts.
153. Although the contract required the addition
of fly ash into the concrete mix, defendant produced the
concrete without fly ash. After this deficiency had been
revealed to ODOT, defendant submitted a new mix
design without fly ash. Over half of the bridge was constructed with the improper mix, making proper verification impossible. Even after the mix design changes,
Hap Taylor produced concrete out of batching tolerances.

110a
[45] SPECIFICATIONS AND CONTRACTS
154. The following is a list of several of the specifications which defendants have knowingly violated in
the performance of their work and provision of materials on federally funded projects. Specification number
refers to Oregon Standard Specifications for Construction (2002):
Section

Title

00330 – Earthwork
00330.17

Quality Control

00330.41

Excavations

00330.42

Embankment, Fills and Backfills

00330.43

Earthwork Compaction Requirements:

00540 – Concrete Bridges
00540.10

General

00540.13

Concrete Mix Designs

00540.14

Concrete Mix Tolerances and Limits

00540.16

Quality Control

00540.17

Acceptance of Concrete

00540.20

Batch Plant

00540.30

Quality Control Personnel

00540.46

Handling, Measuring and Batching
of Materials:

00540.47

Mixing and Transporting Concrete:

111a
00641 – Aggregate Subbase, Base, and Shoulders
00641.10

General

00641.12

Limits of Mixture

00641.15

Quality Control:

00641.16

Acceptance of Aggregates

00641.44

Shaping and Compacting

[46] 00745 – Hot Mixed Asphalt Concrete
(HMAC)
00745.10

Aggregate

00745.11

Asphalt Cement, Additives and Aggregate Treatment

00745.13

Job Mix Formula (JMF) Requirements

00745.14

Tolerances and Limits

00745.16

HMAC Production QC/QA

00745.24

Compactors

00745.49

Compaction, QC

00745.61

Longitudinal Joints

00745.62

Transverse Joints:

00745.70

Pavement Smoothness

155. The following chart refers to contract numbers, dates, project names, contractor and amounts of
the Prime Contracts set forth as individual claims
against defendants.

112a
ODOT Federal
Contract Contract/
Date

Project Name/ Contractor/
Identifier
Amt.

13334

X-NH-STPS004 (104)
2/22/2007

US97: China
Hat Rd-Baker
Rd./Lava
Butte

13302

OTIA-HPPS004(093)
11/16/2006

Redmond
Oregon
Reroute Unit Mainline
1, Phase 2
Paving, LLC
$24,559,555.55

13189

FH-NHS004(089)
11/10/2005

US 97 @
Hap Taylor
S.Century
$8,272,669.00
Drive, Sunriver

13165

OTIAS004(086)
6/23/2005

US 97: RedHap Taylor
mond Reroute, $5,795,637.61
Phase 1,
Unit 1 B

13151

X-NH-S000- Bend-Sisters
(255)
Preservation
5/26/2005

13137

X-NHS041(016)
4/28/2005

US26: Laugh- Hooker Creek
lin Road to
Asphalt &
Marks Creek Paving
(Mix went to $3,195,486.42
QCCSS’ home)

13077

OTIA-SOS000(238)
12/9/2004

US 97/26
Hap Taylor
Willow Creek $3,698,752.48
– Depoe Rd

Hooker Creek
Asphalt &
Paving
$4,170,000.00

Hooker Creek
Asphalt &
Paving
$2,274,496.50

113a
13072

OTIA-SOS015(023)
12/9/2004

OR 126: Glacier- Hap Taylor
Highland
$8,452,287.90
Couplet

[47]
13032

X-STPS004(077)
7/22/2004

US 97: Riley
Bridge Bend
#01679

12985

X-STPS000(219)
3/25/2004

Cotton Wood- J.C. Compton
Fremont
Contractors, Inc.
$4,092,280.60

12925

OTIAS370(001)
11/6/2003

O’Neil Highway Hooker Creek
Asphalt &
Paving
$2,332,233.00

12924

X-PLH-NH- US26: Badger Hooker Creek
S053(018)
Creek – Sid- Asphalt &
10/23/2003 walter Rd.
Paving
$1,115,511.00

12907

HPP-NHS042(15)
10/9/2003

Biggs-Wasco & J.C.Compton
Grass Valley Contractor, Inc.
$4,831,074.56

13257

X-NHSO53(021)
5/18/2006

US 26: Warm Hooker Creek
Springs River Asphalt &
– Warm
Paving
Springs Grade $2,649,966.00

12884

X-NHS004(66)
7/24/2003

Grandview
Hap Taylor
Dr.- Nels
$1,207,864.47
Anderson Place

12876

X-NHS004(70)
6/26/2003

South Bend
Hooker Creek
Weigh &
$ 909,909.00
Safety Station

Hap Taylor
$168,482.40

114a
ADDITIONAL ALLEGATIONS
OF SYSTEMIC VIOLATIONS
156. Relator’s use of representative examples in
his Second Amended Complaint as the method for
pleading a broad scheme of fraud, spanning more than
200 contracts, was found to be insufficient. Pursuant
to the Ninth Circuit’s mandate – granting Perry a further opportunity to amend – relator alleges additional
facts and circumstances not set forth in the Second
Amended Complaint. These additional allegations –
considered by themselves and in the context of the individual claims – set forth the particulars of relator’s
claim that certain defendants engaged in a consistent
course of fraudulent conduct, outside Region 4, where
relator observed the conduct alleged herein.
157. Relator’s allegations of systemic violations
other than the individual claims alleged are based on
information and belief, and made against defendants
Oregon Mainline/J.C. Compton and Hap Taylor/Knife
River. During the time periods relevant to the individual claims, defendants Oregon Mainline and J.C.
Compton were related entities; and subsequent to that
time period, Oregon Mainline acquired J.C. Compton.
[48] Information about systemic violations involving
Oregon Mainline is, and was, reasonably understood
by relator to form the basis of allegations against J.C.
Compton. For purposes of allegations of systemic acts,
relator refers to both defendants together, as one entity.

115a
158. Relator’s allegations of systemic violations
by Hap Taylor/Knife River contain a caveat, in that
some information leads relator to believe that at some
point in time – after this litigation had been filed – this
defendant may have taken appropriate actions to curb
the systematic use of non-compliant materials on its
highway projects. If that fact were established, relator’s claim of systemic violations by Hap Taylor/Knife
River defendants would be limited in time.
159. In addition to the individual claims of False
Claims Act violations stated herein, and pursuant to a
corporate-wide scheme employed consistently throughout Oregon, defendants Oregon Mainline/J.C. Compton
and Hap Taylor/Knife River engaged in falsities and
fraudulent conduct on all, or nearly all, of their highway contracts, with respect to compliance with material specifications.
160. Said systemic conduct was, and is continuing to be, similar in type, nature, scope and effect as
the facts and circumstances forming the individual
claims raised herein. These actions occurred during
the same or similar time period as the individual
claims, and involved the same policies and procedures,
specifications, and oversight mechanisms. There are
overlapping personnel involved in defendants’ projects
throughout Oregon, and defendants Oregon Mainline/
J.C. Compton and Hap Taylor/Knife River directed said
actions from a centralized decision-making organization.

116a
161. Additional information upon which relator
bases his allegations of systemic falsity and fraud pursuant to statewide scheme include:
a. There was frequency and consistency in
substandard materials, false reports and fraudulent
conduct by these defendants witnessed by relator
within Region 4. Individual claims do not appear to be
isolated instances. As a matter of apparent company
policy, defendants Oregon Mainline/J.C. Compton and
Hap Taylor/Knife River employed falsities and fraudulent over its contracts for highway materials as its
mode of business.
[49] b. There was statewide consistency in
failures of ODOT at oversight, not restricted to Region
4, over road construction contracts awarded to defendants Oregon Mainline/J.C. Compton and Hap Taylor/
Knife River. Relator’s observations occurred during the
verification process – by which ODOT is theoretically
supposed to be spot-checking these defendants’ ongoing Quality Control efforts. Relator alleges the same
types of oversight failures, in the same fashion which
led to the circumstances stated as individual claims,
occurred in Regions 1, 2, 3 & 5.
c. There was statewide consistency in the
claiming of funds for non-compliant work on road contracts by Defendants Oregon Mainline/J.C. Compton
and Hap Taylor/Knife River. In Region 3, these defendants used similar tactics pursuant to the same scheme:
paving over non-compliant materials to thwart oversight
and contract remedies, and prevent the verification

117a
process. In Region 5, technicians cherry-picked its testing and falsified results of passing materials, leading
to payment to these defendants for substandard work.
Records from Regions 1 and 2 demonstrate the same
type of ODOT collusion and substandard roadway materials exist in those regions.
d. There is statewide consistency in the premature failure of roads and bridges, premature wear, excessively high safety concerns and repair and replacement
costs. Over the past decade, Oregon has slipped several
steps in relation to highway performance, deficient
bridges, total and maintenance disbursements, as well
as other factors related to cost-effectiveness. Oregon’s
performance in Region 4 appears better than performance in the other regions. Given this, there is no reason to believe these defendants acted in other regions
differently with respect to non-compliant roadway materials.
e. Material falsities and the fraudulent conduct revealed in the individual claims against defendants Oregon Mainline/J.C. Compton and Hap Taylor/
Knife River demonstrate a corporate culture that would
lead to violations in other regions. As one statement
from the Office of Inspector General of the United
States Department of Transportation indicates: “Most
contract frauds are not isolated instances, but are part
of a larger, corporate-wide pattern of misconduct.”

118a
[50] DAMAGES
162. As set forth above, defendants, and each of
them, repeatedly, knowingly, intentionally, systematically and consistently provided substandard workmanship and materials which did not conform to the
requirements of the contract documents.
163. Defendants, and each of them, repeatedly,
knowingly, intentionally, systematically and consistently created or caused to be created false records, invoices, progress reports, data sheets and supporting
documents, and certifications falsely representing that
the work performed by defendants conformed to the requirements of the contract documents as mandated by
the federal scheme.
164. Defendants, and each of them, knew, understood and intended that ODOT would rely upon the
billing, records and claims submitted by defendants in
connection with FAHP projects in order to obtain reimbursement of the federal share of project costs, and
would cause ODOT to present claims to federal officials for reimbursement. Defendants each further
knew, understood and intended that federal officials
would pay over to the state amounts based upon the
defendants’ billing, records and claims.
165. As alleged herein, the United States paid
funds towards the highway construction projects upon
which defendants submitted claims for payment. The
United States did not authorize the disbursement of
said funds to purchase Oregon’s highways, or to commit them to its exclusive use. Instead, federal grant

119a
money and congressional appropriations were paid to
Oregon for intangible benefits conferred on federal projects, interstate commerce and the general public.
166. A central purpose of the regulatory scheme
for highway construction is to ensure that public money
expended on such vital infrastructure of Oregon’s highways and bridges is used only on projects which meet
the 20-year safety and durability federal mandate. Defendants’ failure to supply conforming materials, failure to conduct and truthfully report Quality Control,
and fraudulent conduct on highway contracts, as alleged herein, deprived the United States of the entire
value of its grants and appropriations, paid out on defendants’ contracts.
[51] 167. By making false statements and certifications as described herein, defendants caused the
United States to pay funds on highway contracts. Had
defendants’ false claims and statements and fraudulent conduct been known to the federal government,
the United States would not have paid, and defendants
would not have received, any federal highway funds.
CLAIM FOR RELIEF
False Claims Act - 31 U.S.C. § 3729
168. Allegations in the preceding paragraphs are
re-alleged as if fully set forth.
169. Defendants’ claims, bills, reports and statements as described herein made in connection with
their requests and demands under contract to the state

120a
as a grantee were “claims” under the False Claims Act
(31 U.S.C. §3729(b)(2)(A)(ii), former §3729[c] because
the Government had agreed to reimburse the state for
a portion of the money which defendants requested
and demanded.
170. Defendants’ conduct as described herein
caused false vouchers and verified cost schedules to
be presented to an officer or employee of the United
States Government for payment and approval, in violation of former §3729(a)(1) and current §3729(a)(1)(A).
171. As set forth herein, defendants, and each
of them, by and through their officers, agents, and
employees, knowingly and intentionally made, used,
or caused to be made or used, false statements and
false records to obtain Government payment and cause
Government reimbursement of false or fraudulent
claims in violation of former §3729(a)(2) and current
§3729(a)(1)(B).
172. Defendants, and each of them, through each
bill, invoice, statement or report described herein,
knowingly and intentionally caused Oregon to submit
false claims to the Government, in violation of the
False Claims Act, and is liable for damages and penalties for each such violation. See, e.g., United States v.
Bornstein, 423 U.S. 303 (1976).
173. As set forth herein, defendants, and each of
them, knowingly made false implied and express certifications of compliance with laws, regulations and
specifications [52] in the performance of their work on
highway contracts. Federal statutes and regulations,
including those cited herein, require compliance with
such laws, regulations and specifications as a condition

121a
for payment and receipt of federal funds. Defendants,
and each of them, expressly and implicitly certified
that they were in compliance with said laws, regulations and specifications, intending such false certifications to pass scrutiny and receive FAHP funds.
174. As set forth herein, defendants, and each of
them, engaged in a course of fraudulent conduct to induce the Government to pay money in violation of the
Act. Said conduct included falsified test results, certifications of compliance, progress reports and other records falsely representing the quality and character of
the work and materials claimed.
175. As set forth herein, defendants, and each of
them, through their various officers, directors and/
or employees, agreed and conspired to defraud and
make false claims to the United States by using false
statements and misrepresentations, for the purpose
of obtaining payment by the State (including federal
share reimbursement) and to avoid contract compliance mechanisms, including termination of the contract and debarment. More specifically, defendants,
and each of them, agreed and conspired with ODOT
and project manager personnel, to permit the knowing,
consistent and systemic false and fraudulent claims, as
set forth herein, in violation of §3729(a)(1)[c].
176. Every referenced claim for payment, certificate of conformance, statement, record, test result or
other document related to compliance with federal and
state highway construction regulations was material
to the Government’s decision to pay federal funds.
177. Every referenced claim for payment and every
certificate of conformance or other document certifying

122a
compliance with federal and state highway construction regulations submitted by defendants to the United
States regarding the highway contracts identified herein
were knowingly false claims and/or false documents.
178. Defendants acted with actual knowledge of,
or in reckless disregard concerning, the falsity of their
certifications, statements and claims for payment made
in [53] connection with the FAHP projects, as described
herein. Defendants therefore knowingly violated the
False Claims Act, as defined in 31 U.S.C. §3729(b).
179. Defendants acted with specific intent to
cause the state of Oregon to present false claims for
federal reimbursement on the basis of their billings,
claims, certifications and reports, as set forth herein.
180. The United States Government has been
damaged as a result of defendants’ violation of the
False Claims Act, in that it has paid amounts on each
of the contracts, even though work on those contracts
failed to meet contract requirements. As such, the work
was worthless in terms of statutory purpose, including
third party benefits. Had the true state of the facts
been known to the Government, defendants would not
have received any contract payments, and thus the
amount of damage to the government is equal to or
more than the amount of funds paid.
PRAYER
WHEREFORE, Relator prays, on behalf of himself and the United States of America, for judgment
against the defendants, and each of them, as follows:

123a
1. Treble the amount of damage caused by the
defendants as the result of their false statements and
fraud in violation of the False Claims Act;
2. A civil penalty in the amount of $5,500 to
$11,500 for each violation of the False Claims Act;
3. Prejudgment and post-judgment interest as
allowed for by law;
4. An award of Relator’s share in the maximum
amount allowed pursuant to 31 U.S.C. §3730(d) and/or
other applicable provision of law;
5. An award of relator’s reasonable attorneys’
fees, litigation expenses and court costs; and
6. Such other and further relief as the Court determines is appropriate.
[54] Respectfully submitted,
Dated: April 8, 2016

Jeremy L. Friedman
Law Office of
Jeremy L. Friedman
Derek C. Johnson
Johnson, Clifton,
Larson & Shaller, P.C.
By: /S/ Jeremy L. Friedman
Jeremy L. Friedman
Attorneys for relator
Michael Ray Perry

